Office of Inspector General
U.S. Department of Labor
Office of Audit



                   BLS Information
                 Technology, Survey
                   Processing and
                Administrative Controls
                  Must be Improved




                            Report Number: 09-99-007-11-001
                            Date Issued:  July 20, 1999
BLS Economic Data Security Audit


                                TABLE OF CONTENTS

                                                                                  Page
ACRONYMS .           .      .      .      .      .       .    .      .      .    . vi

EXECUTIVE SUMMARY .                .      .      .       .    .      .      .    .   1

OBJECTIVES, SCOPE, METHODOLOGY AND CRITERIA

       Objectives    .      .      .      .      .       .    .      .      .    .   4
       Scope .       .      .      .      .      .       .    .      .      .    .   4
       Methodology   .      .      .      .      .       .    .      .      .    .   5
       Criteria      .      .      .      .      .       .    .      .      .    .   6

BACKGROUND           .      .      .      .      .       .    .      .      .    .   7

INTRODUCTION         .      .      .      .      .       .    .      .      .    .   9

FINDINGS AND RECOMMENDATIONS

       Chapter I - Information Technology Security Vulnerabilities          .    . 10

       1. Control Deficiencies Existed in Web Site Operations      .        .    . 10
          a. Web Site Servers Were Vulnerable to Intrusion         .        .    . 12
          b. Application Software Development and Change
               Control Procedures Were Inadequate     .       .    .        .    . 12
          c. System Software and Application Programs Were
               Being Tested Simultaneously in the Same Environment          .    . 13
          d. Timely Training Was Not Provided to Staff When New
               Processes Were Implemented       .     .       .    .        .    . 14
          e. LABSTAT Lacked Formal Lines of Communications and
               Definition of Responsibilities   .     .       .    .        .    . 15
          f. Program Staff Outside LABSTAT Posted Information
               to the Web Site     .        .   .     .       .    .        .    .   16
          Recommendations          .        .   .     .       .    .        .    .   17
          BLS Response to the Draft Report      .     .       .    .        .    .   17
          OIG Conclusion           .        .   .     .       .    .        .    .   18

       2. Access Control Deficiencies Existed in Tape Cartridge Security at
          SunGard Computer Services             .     .      .     .        .    .   19
          Recommendation         .      .       .     .      .     .        .    .   19
          BLS Response to the Draft Report      .     .      .     .        .    .   20
          OIG Conclusion         .      .       .     .      .     .        .    .   20


U.S. Department of Labor - Office of Inspector General                          Page ii
BLS Economic Data Security Audit - Table of Contents


                                                                                Page
       3. Management Controls Over Survey Application Software Testing
          and Protection Were Inadequate     .      .      .     .     .    .    20
          a. Some Surveys Were Not Using Independent Review/Quality Assurance
              Groups to Test Software               .      .     .     .    .    20
          b. Access to Programming Source Code Was Not
              Restricted on the Mainframe Computer .       .     .     .    .    21
          c. Some Surveys Were Not Using a Standard Library
              Management System to Protect Software        .     .     .    .    22
          Recommendations         .     .    .      .      .     .     .    .    23
          BLS Response to the Draft Report   .      .      .     .     .    .    23
          OIG Conclusion          .     .    .      .      .     .     .    .    23

       4. Security Vulnerabilities Existed in the Local Area
          Network Infrastructure           .       .     .   .    .    .    . 24
          a. Disaster Recovery Plan for Continuous Operation Had
              Not Been Tested for Most BLS Mission-Critical Systems
              and the IT Security Plan Was Incomplete        .    .    .    . 24
          b. Servers in the BLS LAN Subnet Were Not Always Secure      .    . 25
          c. Controls Over Dial-in Communication Lines Were Inadequate      . 28
          d. Terminated Employees and Contractors Sometimes Retained
              Access to BLS Computers              .     .   .    .    .    . 29
          e. Inactive User Accounts Were Not Deleted         .    .    .    . 30
          f. Encryption Technology Was Not Used to Protect Passwords
              as well as Confidential and Embargoed Files .       .    .    . 31
          g. Policy for Frequency of Password Changes Was Non-Standard      . 31
          h. Password Protected Screen Savers Were Not Used to Protect
              Unattended Computer Work Stations          .   .    .    .    .    32
          Recommendations           .      .       .     .   .    .    .    .    33
          BLS Response to the Draft Report         .     .   .    .    .    .    34
          OIG Conclusion            .      .       .     .   .    .    .    .    35

       Chapter II - Inconsistent Security Practices in Program Survey Offices . 37

       1. Procedures for Preparing and Disseminating News Releases Were
          Incomplete and Out of Date    .     .      .     .     .    .     .    38
          Recommendations         .     .     .      .     .     .    .     .    39
          BLS Response to the Draft Report    .      .     .     .    .     .    39
          OIG Conclusion          .     .     .      .     .     .    .     .    39




U.S. Department of Labor - Office of Inspector General                     Page iii
BLS Economic Data Security Audit - Table of Contents


       2. News Releases Were Prepared in Unsecured Work Areas               .    .   40
          Recommendation        .      .    .     .     .     .             .    .   40
          BLS Response to the Draft Report  .     .     .     .             .    .   41
          OIG Conclusion        .      .    .     .     .     .             .    .   41

       3. Procedures for Protection, Destruction and Number of Copies of
          Sensitive Reports Were Inconsistent         .     .      .        .    . 41
          a. Sensitive Reports Were Not Disposed of Properly       .        .    . 41
          b. Reports Containing Embargoed Data Were Not Properly
              Controlled .        .      .      .     .     .      .        .    .   42
          c. Excessive Copies of Sensitive Documents Were Produced               .   43
          Recommendation          .      .      .     .     .      .        .    .   44
          BLS Response to the Draft Report      .     .     .      .        .    .   44
          OIG Conclusion          .      .      .     .     .      .        .    .   44

       4. Practices Protecting Electronic Files Containing Sensitive Data
          Were Not Consistent     .       .      .      .     .       .     .    .   44
          Recommendation          .       .      .      .     .       .     .    .   45
          BLS Response to the Draft Report       .      .     .       .     .    .   45
          OIG Conclusion          .       .      .      .     .       .     .    .   46

       5. Policies and Procedures for Employees Who Work at Home
          (Flexiplace) Were Insufficient      .     .     .    .            .    .   46
          Recommendation            .    .    .     .     .    .            .    .   47
          BLS Response to the Draft Report    .     .     .    .            .    .   47
          OIG Conclusion                 .    .     .     .    .            .    .   47

       Chapter III - Deficient Personnel Security and Management Control         . 48

       1. Inadequate Personnel Security for Employees and Contractors            . 48
          a. Many Employees Having Access to Embargoed (Sensitive)
              Data Did Not Have Background Investigations            .      .    . 49
          b. The Sensitivity of Many Positions Was Improperly Classified         . 50
          c. Background Investigations Were Not Updated as Required              . 51
          d. Contract Employees Lacked Security Checks and Background
              Investigations       .      .     .     .      .       .      .    .   51
          Recommendations          .      .     .     .      .       .      .    .   53
          BLS Response to the Draft Report      .     .      .       .      .    .   53
          OIG Conclusion           .      .     .     .      .       .      .    .   54




U.S. Department of Labor - Office of Inspector General                          Page iv
BLS Economic Data Security Audit - Table of Contents


       2. Employees Who Handled Embargoed Data Were Not Provided
          Periodic Training or Guidance on Ethics and Investment Restrictions         54
          Recommendations          .     .      .       .    .      .       .       . 56
          BLS Response to the Draft Report      .       .    .      .       .       . 56
          OIG Conclusion           .     .      .       .    .      .       .       . 56

       3. BLS Management Control Plan Was Incomplete          .     .      .        . 56
          a. Triennial OMB Circular A-130 Reviews Had Not
              Been Performed      .      .     .    .         .     .      .        . 57
        b. BLS Management Control Needs to Strengthen its
              Oversight for Corrective Action       .         .     .      .        .   58
          Recommendations         .      .     .    .         .     .      .        .   60
          BLS Response to the Draft Report     .    .         .     .      .        .   61
          OIG Conclusion          .      .     .    .         .     .      .        .   62

BLS INITIATIVES .           .      .      .      .       .    .     .      .        . 62

EXHIBIT I - BLS COMPLETE RESPONSE TO THE DRAFT REPORT                      .    .       64




U.S. Department of Labor - Office of Inspector General                          Page v
BLS Economic Data Security Audit


                                     ACRONYMS

              ADP                  Automatic Data Processing
              BI                   Background Investigation
              BLS                  Bureau of Labor Statistics
              CES                  Current Employment Statistics (Establishment)
              COOP                 Continuity of Operations Plans
              CPI                  Consumer Price Index
              CPS                  Current Population (Household) Survey
              DOL                  Department of Labor
              DPPS                 Division of Producer Price Systems
              DSM                  Division of Systems Modernization
              ECI                  Employment Cost Index
              ETA                  Employment and Training Administration
              ESR                  Employment Situation Report
              FIPS                 Federal Information Processing Standards
              FSMS                 Federal State Monthly Surveys
              GAO                  General Accounting Office
              GSA                  General Services Administration
              IT                   Information Technology
              LABSTAT              Labor Statistics
              LAN                  Local Area Network
              LBI                  Limited Background Investigation
              MBI                  Minimum Background Investigation
              NACI                 National Agency Check and Inquiries
              NIST                 National Institute of Standards and Technology
              NSA                  National Security Agency
              NT                   New Technology
              OA                   Office of Administration
              OGE                  Office of Government Ethics
              OIG                  Office of Inspector General
              OMB                  Office of Management and Budget
              OPLC                 Office of Prices and Living Conditions
              OPSS                 Office of Publications and Special Studies
              OPM                  Office of Personnel Management
              OTSP                 Office of Technology and Survey Processing
              PC                   Personal Computer
              PPI                  Producer Price Index
              PSB                  Postal Square Building
              RACF                 Resource Access Control Facility
              TRP                  Triennial Review Plan




U.S. Department of Labor - Office of Inspector General                              Page vi
BLS Economic Data Security Audit


                              EXECUTIVE SUMMARY

Subsequent to a prerelease of employment data which occurred on November 4, 1998,
the Bureau of Labor Statistics (BLS) Commissioner requested the Office of Inspector
General (OIG) to perform a comprehensive audit of activities associated with the
dissemination of sensitive BLS data. Early in OIG’s field work, another prerelease
occurred. The December Producer Price Index was released a day early on January 12,
1999. Another incident occurred on January 22, 1999, when an intruder altered a BLS
web page.


Our audit findings demonstrate that, over a period of time, the BLS operated its
Information Technology (IT) security, survey processing and certain administrative
procedures without the benefit of sound internal controls. In our opinion, this absence of a
strong control environment contributed to the premature release of sensitive BLS data.


This report is divided into three chapters. The first chapter addresses IT security
vulnerabilities. The second chapter focuses on inconsistencies in security practices in
program survey offices. Chapter three deals with administrative deficiencies in personnel
security and management oversight. Each chapter includes the findings related to the
subject area and BLS’ response to our Statement of Facts and draft report. OIG’s
recommendations for corrective action are included in each chapter. BLS has
expeditiously acted (or started action) on most of our recommendations.

Within each chapter, there are numerous audit findings. When considered separately, an
individual finding might be construed as having a “minor” impact on BLS security over
sensitive economic data. However, when taken as a whole, these findings show
pervasive problems in the BLS internal control structure.


                              The Office of Technology and Survey Processing (OTSP) is
 Information
                              responsible for BLS IT. We focused our audit efforts on
 Technology Security
                              identifying and evaluating IT internal controls developed
 Vulnerabilities              and implemented by OTSP. We identified internal control
                              deficiencies in four areas we believe are critical in
successfully managing an IT department:

       !      control deficiencies existed in web site operations;

       !      access control deficiencies existed in tape cartridge security at SunGard
              Computer Services;

       !      management controls over survey application software testing and
              protection were inadequate; and

U.S. Department of Labor - Office of Inspector General                               Page 1
BLS Economic Data Security Audit - Executive Summary



       !      security vulnerabilities existed in the local area network (LAN) infrastructure.

These vulnerabilities threaten the integrity of sensitive BLS data. BLS internal controls
over systems and applications software were inadequate and contributed to one of the
prerelease incidents. Other vulnerabilities existed in the operations of the BLS LAN
systems and web site.


                             There were inconsistencies among program survey offices
 Inconsistent Security
                             regarding the level of security over news release preparation.
 Practices in Program
                             The policies and procedures varied for news release
 Survey Offices              preparation and the documentation of the procedures was
                             fragmented and incomplete. Documents and electronic files
with sensitive and confidential data were not always afforded appropriate levels of
protection. Policies and procedures for staff working on flexiplace did not specifically
address security issues.


                               We found numerous deficiencies in the area of personnel
 Deficient Personnel
                               security. The sensitivity classification of most of the positions
 Security and
                               we reviewed was inaccurate, indicating most were
 Management Control            nonsensitive when in fact the individual occupying the position
                               handled sensitive information. This, combined with the fact
that many staff handling sensitive information had no security clearance pointed to a lack of
control over this critical area. Periodic training and reminders of ethics responsibilities
and investment restrictions were not provided to all staff who handle sensitive information.

Management controls did not appear effective due to the lack of regular reviews and audits
of BLS operations and security practices. There was also a lack of effective follow-up to
ensure issues identified in previous studies were corrected.

Weaknesses in oversight, absence of written policies and procedures over computer
systems and preparation of the news releases, and the absence of security practices, led
to security incidents and placed the agency’s sensitive and confidential data at risk.




                    BLS data have become increasingly difficult to protect due to advances
 Conclusion
                    over the past few years in easy-to-use, high-level-inquiry languages, the
                    spread of ever more powerful small computers, the accelerating use of
the Internet, and general increases in computer literacy. All of these developments have
created a higher level of risk and, consequently, protection requirements for IT systems.


U.S. Department of Labor - Office of Inspector General                                Page 2
BLS Economic Data Security Audit - Executive Summary

Without a corresponding growth in good data security practices and internal controls,
these advances increase the risk of inadvertent or deliberate corruption of BLS data
assets.

BLS has recently initiated numerous reviews, and formed several committees since the
security incidents. However, similar studies in the past have come and gone without
effective follow-up to assure the implementation of the recommended changes. This time,
there must be the highest level of oversight to ensure effective follow-through on all
identified issues. To do otherwise would increase the possibility of future security
incidents.

We believe it is imperative the Bureau act promptly to correct the deficiencies both we and
they have identified. Further errors in the timing of news releases or other security
breaches may compromise BLS’ reputation and credibility, as well as erode public
confidence in BLS reports.

                 BLS said it was in general agreement with the findings and
 BLS
                 recommendations, which have already been quite helpful in improving the
 Response
                 security of BLS programs. Corrective action is under way and several of
 to Draft        the recommendations have been fully implemented. Projected
 Report          completion dates have been provided where work still is under way. The
                 full text of BLS’ response is included as Exhibit I of this report.

                     Actions BLS is taking, or proposes to take, generally satisfy OIG
 OIG
                     recommendations. However, we note BLS’ timetable shows that some
 Conclusion
                     actions will not be completed until future dates, extending to the year
                     2002. In some instances, BLS does not fully agree with OIG’s
recommendation and is proposing alternative actions. We urge BLS to expedite its
corrective actions wherever possible and fully implement OIG recommendations. OIG’s
specific conclusion to BLS’ response to each recommendation is included in the text of
this report. The OIG plans to conduct a follow-up audit on BLS’ corrective actions taken to
resolve this audit report.




U.S. Department of Labor - Office of Inspector General                             Page 3
BLS Economic Data Security Audit


     OBJECTIVES, SCOPE, METHODOLOGY AND CRITERIA


 Objectives

The overall audit objective was to determine if the Bureau of Labor Statistics (BLS) had
adequate and effective internal controls in place to prevent the premature or unauthorized
disclosure or use of the following sensitive economic data:

       !      employment trend indicators;

       !      indicators of inflationary trends; and

       !      economic information used by the Federal Reserve Board in setting
              monetary policy.

Our specific audit objectives were to identify data and reports BLS considered to be
sensitive and embargoed (time sensitive, i.e., must not be released before a set date and
time) and determine:

       !      whether internal control policies, procedures and structure provide
              reasonable protection of agency information assets;

       !      the levels of review (control) for all work performed on relevant systems, data
              collection, analysis/conversion of data into sensitive information; and

       !      if employees and contractors with access to systems, data and information
              are properly screened, trained and subject to financial disclosure reporting
              requirements.



 Scope

Our audit covered BLS national office operations as they existed at the time of our field
work (January 5 through April 9, 1999) and addressed BLS planned initiatives. BLS
advised us they operated 23 mission-critical systems. We performed audit field work in
BLS national office organizations and systems involved in producing and disseminating
the sensitive reports that can have the most impact on financial markets if released before
scheduled. These reports are produced by the following five mission-critical systems
(surveys):

       !      Current Employment Statistics (Establishment) Survey (CES);


U.S. Department of Labor - Office of Inspector General                              Page 4
BLS Economic Data Security Audit - Objectives, Scope, Methodology and Criteria



       !      Current Population (Household) Survey (CPS);

       !      Consumer Price Index (CPI);

       !      Employment Cost Index (ECI); and

       !      Producer Price Index (PPI).

The CES and CPS survey information are combined and published as the Employment
Situation Report (ESR). We excluded BLS Regional Offices from our audit. We did not
audit data collection and editing operations at the U.S. Bureau of the Census in its role of
providing BLS Current Population (Household) Survey information.

As discussed in Chapter I, at the time of our review the National Security Agency (NSA)
initiated a security review of the BLS web site. The review included installing
sophisticated security-testing software on the web server to detect potential vulnerabilities.
We did not perform procedures that would duplicate NSA work.



 Methodology


To accomplish our audit, we reviewed written policies and procedures and identified the
controls over collecting, analyzing, processing and reporting sensitive data. We conducted
interviews with BLS officials and staff, walked through survey press release preparation
activities and made observations to determine if BLS policies, procedures and internal
control structures were in place, operational and adhered to. The nature of this audit did
not require the use of statistical sampling.

We discussed our observations and findings with BLS officials and staff during the course
of field work. We provided BLS officials interim status reports. At the conclusion of field
work, we issued a Statement of Facts (with summary workpapers as attachments) to the
Commissioner. BLS provided us a comprehensive written response to the Statement of
Facts.

The audit was performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States.




U.S. Department of Labor - Office of Inspector General                               Page 5
BLS Economic Data Security Audit - Objectives, Scope, Methodology and Criteria


 Criteria

The following criteria were used in accomplishing our audit:

       C      OMB Circular No. A-123 - Management Accountability and Control, June
              1995
       C      OMB Circular No. A-130 - Management of Federal Information Resources,
              February 1996
       C      BLS Information Technology Security Manual, Version 1.3, dated November
              4, 1998
       C      NIST Special Publication 800-12 - An Introduction to Computer Security
              dated October 1995
       C      NIST Special Pub. 800-18 - Guide for Developing Security Plan for IT
              Systems
       C      FIPS Pub 191 - Guideline for the Analysis of Local Area Network Security
       C      FIPS Pub 112 - Password Usage
       C      GAO/AIMD-98-12.19.6 - GAO Federal Information System Controls Audit
              Manual, January 1999
       C      GAO/AIMD-98-21.3.1 - GAO Standards for Internal Control in the Federal
              Government, December 1997
       C      Federal Personnel Manual
       C      Security Plan for the Employment Situation Current Population Survey (CPS)
              System, November 1998
       C      Producer Price Index (PPI) System Security Plan, November 1998
       C      CPI Data Security Procedures, June 1998
       C      Standards of Ethical Conduct for Employees of the Executive Branch,
              August 1992
       C      BLS Personal Data Security Practices
       C      Administrative Procedure 1-96, Responsibility for Safeguarding Confidential
              Information
       C      Commissioner’s Order 3-93, Confidential Nature of BLS Records
       C      Commissioner’s Order 1-96, Consumer Price Index Futures Contracts




U.S. Department of Labor - Office of Inspector General                          Page 6
BLS Economic Data Security Audit


                                   BACKGROUND

On Wednesday, November 4, 1998, a prerelease of Bureau of Labor Statistics’ (BLS)
employment data for the month of October 1998 occurred. This data release should not
have occurred until Friday, November 6, 1998. The early release affected both stock and
bond market prices. The BLS Commissioner requested the Office of Inspector General
(OIG) perform a comprehensive audit of activities associated with the dissemination of
sensitive BLS data.

The BLS Commissioner also directed an internal review be immediately initiated. An
internal report on the review was issued on November 19, 1998. The BLS report
concluded the prerelease was accidental and resulted from inadequate management and
internal controls over the handling of supplemental information. The report also concluded
that the rigorous, centralized procedures which govern the posting of news releases and
time series data on the web site were not uniformly applied to the handling of
supplementary materials.


 BLS Organization
 Background
                                       BLS is the principal data-gathering agency of the
Federal Government in the broad field of labor economics and statistics. BLS is a national
statistical agency that collects, processes, analyzes and publishes sensitive statistical and
economic data in areas identified for economic research and statistical fact-finding by
Congress, other Federal agencies, state governments, business and labor.

Most of the Bureau's data come from voluntary responses to business and household
surveys conducted by BLS staff, the Bureau of the Census (on a contract basis), and in
conjunction with cooperating state and Federal agencies. Voluntary reporting from
businesses and households and the preserving of the confidential nature of reported data
are important characteristics of BLS programs.

All BLS programs meet statutory responsibilities. The legislation establishing BLS in the
late 1800s (29 U.S.C. I) states:

       The general design and duties of the Bureau of Labor [Statistics] shall be
       to acquire and diffuse among the people of the United States useful
       information on subjects connected with labor, in the most general and
       comprehensive sense of that word, and especially upon its relation to
       capital, the hours of labor, the earning of laboring men and women, and
       the means of promoting their material, social, intellectual, and moral
       prosperity.



U.S. Department of Labor - Office of Inspector General                              Page 7
BLS Economic Data Security Audit - Background

BLS data and statistical survey results are used in the development of other Federal
statistics, including the Gross Domestic Product, and economic indicators. Congress, the
President, the Federal Reserve Board, and other executive branch agencies rely on these
indicators and BLS data to determine national economic policy. BLS data and survey
results are also used by industry and labor in economic planning and collective bargaining
activities and by other public and private institutions for a variety of planning and analytical
activities.

BLS developed the statistical survey programs, for the most part, independently from each
other. As a result, the Bureau was organized according to survey subject matter areas, an
arrangement which has been continued over the years. Each subject matter group, or
survey, has an information technology support group within the Office of Technology and
Survey Processing.




U.S. Department of Labor - Office of Inspector General                                 Page 8
BLS Economic Data Security Audit


                                   INTRODUCTION

This report is divided into three chapters. The first chapter addresses information
technology (IT) security vulnerabilities. The second chapter focuses on inconsistencies in
security practices in program survey offices. The third chapter deals with administrative
deficiencies in personnel security and management oversight. Each chapter includes the
findings related to the subject area and BLS’ response to our Statement of Facts. OIG’s
recommendations for corrective action are included in each chapter. BLS has
expeditiously acted (or started action) on most of the OIG recommendations.

Within each chapter, there are numerous audit findings. When considered separately, an
individual finding might be construed as having a “minor” impact on BLS security over
sensitive economic data. However, our findings demonstrate pervasive problems exist in
BLS’ approach to IT security. In our opinion, the extent of our findings is indicative of an
agency that has, over a period of time, had a breakdown in administering and enforcing IT
security.

Some of the issues identified in this audit report were identified in previous reviews by
various entities. BLS did not act effectively to correct the problems identified. BLS
internal reviews conducted as a result of the two prereleases of data identified many of the
same IT security issues previously identified.

In our opinion, weaknesses in oversight, absence of written policies and procedures over
computer systems and preparation of the news releases, and the absence of security
practices, led to security incidents and placed the agency’s sensitive and confidential data
at risk.




U.S. Department of Labor - Office of Inspector General                              Page 9
BLS Economic Data Security Audit


                   FINDINGS AND RECOMMENDATIONS

                                  OTSP is responsible for BLS IT. OTSP provides
 Chapter I                        technical support to the BLS program surveys. OTSP’s
 Information                      Labor Statistics (LABSTAT) group is responsible for
 Technology                       posting news releases and related data to the BLS public
 Security                         web site.
 Vulnerabilities
                                  We focused our audit efforts on identifying and evaluating
                                  IT internal control structures developed and implemented
                                  within OTSP. We identified the following deficiencies:

       1.     control deficiencies existed in web site operations;

       2.     access control deficiencies existed in tape cartridge security at SunGard
              Computer Services;

       3.     management controls over survey application software testing and
              protection were inadequate; and

       4.     Security vulnerabilities existed in the local area network infrastructure.

We believe these deficiencies are significant. They indicate a pervasive lack of
management control and oversight in this critical area. BLS must move quickly to rectify
these problems to avoid further disclosures and ensure sensitive data are not
compromised.


                                         Inadequate internal control structures in LABSTAT
1. Control Deficiencies                  led to prereleases and the web site intrusion
   Existed in Web Site                   incident. LABSTAT management did not
   Operations                            recognize the commitment needed to
                                         implement effective internal controls as the web site
                                         and the Internet grew more complex. The Bureau’s
efforts to meet increasing public demand for timely access to data releases appear to
have outweighed LABSTAT efforts to ensure adequate controls were implemented. BLS
did not institute procedures to ensure risks were identified and fully understood.

As a result, problems have occurred in the release of data to the BLS web site. There
have been three incidents of premature releases of embargoed BLS data in the past 3
years. Continuation of these problems could erode public confidence in BLS’ ability to
properly disseminate economic information at prescribed times.



U.S. Department of Labor - Office of Inspector General                                Page 10
BLS Economic Data Security Audit - Findings and Recommendations

In response to the prereleases, the Commissioner directed LABSTAT management to
implement interim procedures that do not allow the news releases and related data to be
transferred to the web site server until shortly before or at release time.

LABSTAT is responsible for posting sensitive economic data such as job growth,
unemployment rates and price changes to the BLS web site. LABSTAT is also
responsible for the operation and maintenance of the web site. The economic information
on the BLS web site is extremely valuable and used by many governmental and private
organizations in making key financial and policy decisions. Individuals with advance
knowledge of BLS information could exploit the information for their own financial
advantage.

The Employment Situation Report (ESR), Producer Price Index (PPI), and Consumer Price
Index (CPI) are posted monthly to the web site. The Employment Cost Index (ECI) is
posted quarterly. Program offices analyze survey data and prepare reports and indexes.
The program offices submit the results of their analysis to LABSTAT for processing and
posting to the BLS web site.

LABSTAT’s critical role in processing and disseminating sensitive economic information
mandates strong, effective internal controls be in place and operational to ensure data is
properly safeguarded and released at the appropriate time. However, we determined
management controls for safeguarding and posting data to the BLS web site were not
effective. Ineffective controls contributed to both the inadvertent prereleases of economic
reports and the intrusion and hacking of the web site.

Our audit work disclosed the following problems:

       a.     web site servers were vulnerable to intrusion;

       b.     application software development and change control procedures
              were inadequate;

       c.     system software and application programs were being tested simultaneously
              in the same environment;

       d.     timely training was not provided to staff when new processes were
              implemented;

       e.     LABSTAT lacked formal lines of communications and definition of
              responsibilities; and

       f.     program staff outside LABSTAT posted information to the web site.




U.S. Department of Labor - Office of Inspector General                              Page 11
BLS Economic Data Security Audit - Findings and Recommendations


       a. Web Site Servers Were Vulnerable to Intrusion


       On January 22, 1999, an unknown individual hacked into the BLS public web site.
       The hacker put an obscene message on the BLS home page. BLS determined the
       hacker gained access through a software product called Microsoft FrontPage. BLS
       had installed the product according to defaults and had not enabled all security
       features. This oversight allowed the hacker to deface the web page.

       On February 9, 1999, the National Security Agency (NSA) initiated a security review
       of the BLS web site. NSA installed sophisticated security-testing software on the
       web servers to detect potential vulnerabilities. NSA has not issued its final report.
       However, preliminary indications are NSA identified high-risk vulnerabilities
       impacting system integrity. The “raw data” produced by one of the vulnerability
       analysis software packages contains the following warning:

              . . . It is highly probable that a remote attacker can gain complete control
              over these systems, and use them to leverage access to other resources
              on the network.

       We did not attempt to duplicate or extend the NSA tests; rather, their tests and
       analysis are incorporated into this report by reference. In our opinion, NSA security-
       testing software is sufficiently creditable to conclude there are vulnerabilities in the
       web servers. BLS has taken actions to reduce some of the NSA-identified
       vulnerabilities and will act on others, as appropriate, when the final report is
       delivered.

       At our May 21, 1999 exit conference, BLS provided us a copy of NSA’s final report,
       dated May 13, 1999. The report identified many high risk vulnerabilities that BLS
       needs to address immediately and contained recommendations for corrective
       action.

       b.      Application Software Development and Change
               Control Procedures Were Inadequate


       On January 12, 1999 (after audit field work commenced), BLS inadvertently
       released PPI data early. The premature release would not have occurred if
       adequate internal controls had been in place and enforced. Internal control
       deficiencies discussed below contributed to this error.




U.S. Department of Labor - Office of Inspector General                                Page 12
BLS Economic Data Security Audit - Findings and Recommendations

              (1)    LABSTAT did not have formal written procedures for requesting and
                     approving program changes. There was no requirement to document
                     each change, test results, and to have supervisory review and
                     approval. Procedures were not formalized for migrating tested
                     programs (after an independent review) into the production library.

              (2)    LABSTAT development staff routinely copied programs (referred to
                     as scripts) from the production computer to the test computer for
                     modification and testing. The same programmer then migrated the
                     “tested” program back to the production computer. We found
                     program changes were not being independently tested; i.e., tested by
                     an independent review/quality assurance group.

              (3)    LABSTAT was not using standard automated tracking software to
                     control software libraries. Consequently, (a) an unauthorized program
                     could be substituted for the authorized version; (b) test programs
                     could be labeled as production programs; (c) two programmers could
                     inadvertently access and work on the same test program version
                     simultaneously, making it difficult or impossible to merge their work;
                     and (d) unauthorized changes to either test or production programs
                     could be made surreptitiously and remain undetected.

       The BLS response to our Statement of Facts indicated LABSTAT is currently
       implementing more stringent controls over software changes and testing.
       Additional staff is being hired to perform these processes. A team was recently
       commissioned to make recommendations on configuration management.
       LABSTAT will hire a librarian to control access to production systems. File
       permissions for production scripts have been set so that modifications can be
       made only by the production team leader. LABSTAT installed Visual Source Safe
       version control software the week of March 22, 1999.

       c.     System Software and Application Programs Were
              Being Tested Simultaneously in the Same
              Environment

       LABSTAT did not have adequate policies and procedures to control system
       software and application program testing. Development staff tested new versions
       of system software on the development server while also testing updated
       application programs on the same server.

       The January 1999 PPI prerelease was caused, in part, by the simultaneous testing
       of system software and application programs on the same server. The System
       Administrator was supposed to maintain identical versions of system software on
       both the development and production servers. However, a programmer obtained a


U.S. Department of Labor - Office of Inspector General                            Page 13
BLS Economic Data Security Audit - Findings and Recommendations

       more current shareware version of some software and loaded it on the development
       server. He then made modifications to a date field in an application program and
       tested the change on the development server. The application program test ran
       successfully on the development server. The programmer migrated the changed
       application program to the production server which was running an older version of
       the system software. The application program subsequently failed, resulting in the
       prerelease of the PPI news release data.

       BLS responded to our Statement of Facts as follows:

              LABSTAT has implemented changes to adhere fully to existing
              BLS system software standards, policies, and procedures. In
              addition, LABSTAT is developing a project-specific policy manual
              with supplemental materials. The first draft of this manual was
              issued to staff and discussed in detail on April 7, 1999.

       d. Timely Training Was Not Provided to Staff When
          New Processes Were Implemented

       LABSTAT personnel were not trained when processes were changed. This lack of
       training in new processes contributed, in part, to the January 1999 prerelease of the
       PPI.

       Regarding the January 1999 PPI prerelease, we determined the LABSTAT
       computer operator recognized the PPI press report would be released a day early.
       He changed the scheduled release date in the computer and went to lunch. Under
       the old procedures, changing the scheduled release date in the computer would
       change the date the job would run. Unknown to the computer operator, new
       automated procedures were in effect and changing the date on the computer would
       not prevent the job from running. When the computer operator returned from lunch,
       he found the PPI job ran and the press release was in the public domain.

       BLS responded to our Statement of Facts as follows:

              The BLS agrees with the OIG that a lack of training in new
              procedures in the LABSTAT Branch contributed to the January
              prerelease incident. The LABSTAT Branch has instituted a
              process whereby staff are trained on all new procedures during the
              testing phase.

       e.      LABSTAT Lacked Formal Lines of
               Communications and Definition of
               Responsibilities

U.S. Department of Labor - Office of Inspector General                             Page 14
BLS Economic Data Security Audit - Findings and Recommendations

       LABSTAT lacked effective formal lines of communication between staff and
       management. Effective communication is an essential requirement in managing an
       IT department. Formal lines of communication ensure management is kept abreast
       of problems that can arise daily.

       Preceding the January 1999 PPI prerelease, a LABSTAT programmer told the
       computer operator he had identified a problem in an application program used to
       post the news release to the web site. The computer operator thought the
       programmer meant that he had corrected the problem. The programmer then went
       to lunch, intending to fix and test the script when he returned. In the meantime, the
       PPI program supervisor, not knowing of the programming problem, followed normal
       procedures and electronically approved the press release for posting the next
       morning. The program failed and the job ran almost immediately, prematurely
       posting the PPI news release to the web site. Both the computer operator and the
       programmer knew there was a programming problem. However, neither had
       reported this information to either their supervisor or the PPI program supervisor.

       OIG and BLS jointly interviewed LABSTAT personnel regarding this prerelease. In
       its report BLS concluded: (1) LABSTAT branch development, testing, and
       installation of programs are not tightly controlled, coordinated, and recorded in
       accordance with accepted systems development methods, and (2) procedures for
       these activities and areas of responsibility are informal and not documented. No
       one person has official responsibility for coordinating revisions to programs.

       BLS responded to our Statement of Facts as follows:

              The LABSTAT Branch has prepared a detailed organization chart
              and overview of staffing duties and responsibilities as required for a
              planned reorganization of the unit. These documents have been
              reviewed and approved by OTSP and OA management. . .
              LABSTAT Branch is filling the currently vacant Branch Chief
              position, an action which should improve the situation regarding
              formal lines of communication.

       f. Program Staff Outside LABSTAT Posted Information to the Web Site

       On November 4, 1998, BLS prereleased nonfarm payroll employment survey
       information to the public web site. The data was scheduled to be released two
       days later on November 6, 1998, as a supplement to the Employment Situation
       News Release. An economist employed in a program office outside of LABSTAT
       was given the responsibility of posting this data to the web site. The BLS security
       review of this incident stated the premature release of data to the web site was a
       result of miscommunication between a senior economist and an economist who


U.S. Department of Labor - Office of Inspector General                             Page 15
BLS Economic Data Security Audit - Findings and Recommendations

       were given the task to post the data to the web site. The BLS conclusion, in part,
       may be correct; however, BLS needs to establish clear responsibilities for posting
       embargoed data to the public web site. In our opinion, in the absence of this
       designated responsibility, BLS remains vulnerable to prereleases of embargoed
       information.

       Further, we believe relying on an economist outside of LABSTAT, with limited
       training and inadequate documentation and procedures to post data to the BLS
       web site, was inappropriate.



                                   Recommendations

 To properly safeguard economic information, provide for the timely release of accurate
 data at prescribed times, and maintain public confidence in BLS dissemination of data
 on its web site, we recommend the Commissioner take the following actions:

        1.     Establish controls to ensure all available web security features are
               enabled.

        2.     Act on all findings in the NSA Security Report.

        3.     Require LABSTAT to obtain and implement a standard library
               management system to protect software.

        4.     Develop policies and procedures for LABSTAT which provide for
               controls over changes, upgrades, testing and implementation of both
               system and application software.

        5.     Require the independent review/quality assurance function be performed
               for all modifications before placing programs or systems into production.

        6.     Restrict access to all programming source code.

        7.     Ensure LABSTAT develops formal documentation outlining duties,
               responsibilities and lines of communication.

        8.     Ensure staff outside of LABSTAT is not allowed to post information to the
               web site.




U.S. Department of Labor - Office of Inspector General                                Page 16
BLS Economic Data Security Audit - Findings and Recommendations

BLS Response to the Draft Report

BLS’ response is summarized below and numbered to correspond with OIG’s
recommendations. The complete text of BLS’ response is contained in Exhibit I of this
report.

       1.     New web software (Microsoft Internet Information Server 4.0) has been
              installed and comprehensively configured. Security scripts were run to test
              for the presence of recommended patches. Security-related news services
              are being monitored to keep abreast of threats and appropriate
              countermeasures.

       2.     BLS has made changes to implement 37 of NSA’s 82 recommendations.
              Some of the recommendations may not be implemented without making
              some of the BLS web site unavailable to the public. BLS is evaluating the
              NSA’s recommendations and will review the results with OIG.
              Implementation should be completed, to the extent possible, by November
              1999.

       3.     LABSTAT has implemented Microsoft Visual Source Safe version control
              software. Data loading scripts have been entered. Other LABSTAT source
              code is currently being entered. Implementation should be completed by
              August 1999.

       4.     Implementation is under way and should be completed by January 2000.
              General policies have been set. Version control software is in place.
              Specific procedures will be developed and implemented when a staff
              member is hired to be a librarian and configuration management
              coordinator.

       5.     Implementation is under way and should be completed by November 1999.
              LABSTAT established a new independent Quality Control team in February
              1999. Comprehensive test plans have been developed and two rounds of
              independent testing have been performed.

       6.     Access to LABSTAT programming source code has been restricted so that
              only the Data Management branch chief has write access to data loading
              scripts on the production machines.

       7.     Implementation is under way and should be completed by January 2000.
              LABSTAT is working on a comprehensive reorganization plan.

       8.     File permissions on LABSTAT production machines have been set so that
              only LABSTAT staff may write to the machines.


U.S. Department of Labor - Office of Inspector General                            Page 17
BLS Economic Data Security Audit - Findings and Recommendations



OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendations to be resolved. The recommendations can be closed when
BLS provides adequate documentation that the corrective action has been implemented.


                                              BLS tape cartridges (and all other DOL tape
 2. Access Control Deficiencies
                                              cartridges) at a mainframe computer
    Existed in Tape Cartridge                 contracted by DOL were vulnerable to
    Security at SunGard Computer              unauthorized access.
    Services
                                                In addition to the computer servers BLS
                                                operates, it also purchases mainframe
computer support from SunGard Computer Services. Much of the survey micro data BLS
collects is transmitted to SunGard where it is edited, analyzed, summarized, and then
returned to the BLS servers. Other Department of Labor (DOL) agencies, including OIG,
use the SunGard service facility. Data at SunGard are typically stored on magnetic media
such as disks and tape cartridges. SunGard’s security software, Resource Access
Control Facility (RACF), was supposed to protect data files from unauthorized access.

Our audit work disclosed BLS tape cartridges (and all other DOL tape cartridges) at
SunGard were vulnerable to unauthorized access. We were able to penetrate the tape
cartridge security system at SunGard. An OIG computer specialist at a remote location
obtained access to BLS tape cartridge files stored on SunGard.

BLS responded that the tape cartridge vulnerability was a SunGard deficiency affecting all
DOL SunGard users. (OIG notified the DOL Chief Information Officer of this vulnerability.)
OIG has retested the tape cartridge security and found the vulnerability has been
eliminated.

BLS believes the tape cartridge [unauthorized] access problem was a SunGard problem
which affected all DOL SunGard users. Regardless, BLS (and other DOL agencies are) is
responsible for protecting its IT assets. Consequently, we believe it is incumbent on the
using agency to test the security systems provided by external computer services.


                                    Recommendation

 To improve security of data at SunGard, we recommend the Commissioner ensure
 procedures are developed to periodically review and test access controls at SunGard
 to ensure BLS data is secure.



U.S. Department of Labor - Office of Inspector General                            Page 18
BLS Economic Data Security Audit - Findings and Recommendations




U.S. Department of Labor - Office of Inspector General            Page 19
BLS Economic Data Security Audit - Findings and Recommendations

BLS Response to the Draft Report

BLS responded that implementation of the recommendation is under way and should be
completed by October 1999. The BLS Information Technology (IT) Security Team has
been assigned the responsibility for testing IT security controls at SunGard. They will
develop/acquire tools and establish procedures for regularly testing file and tape access
controls at SunGard.

OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendation to be resolved. The recommendation can be closed when
BLS provides adequate documentation that the corrective action has been implemented.


                                                 BLS has organized the IT function largely by
 3. Management Controls Over
                                                 survey. Separate OTSP units provide IT
    Survey Application Software                  support for each program survey. The
    Testing and Protection Were                  program survey funds the OTSP unit
    Inadequate                                   serving it. Periodic economic reports
                                                 produced by the surveys are transmitted to
                                                 LABSTAT for posting to the BLS web site.

BLS relies heavily on IT to carry out its mission of providing statistics to the public and
other government agencies. Each survey has its own sophisticated software systems
developed over years. These software systems represent an enormous investment in time
and money. The protection of these IT assets is critical.

This decentralization led to internal control inconsistences within the surveys. Our audit of
program survey office IT operations disclosed the following deficiencies:

       a.     some surveys were not using independent review/quality assurance groups
              to test software;

       b.     access to programming source code was not restricted on the mainframe
              computer; and

       c.     some surveys were not using a standard library management system to
              protect software.


       a. Some Surveys Were Not Using Independent Review/Quality
          Assurance Groups to Test Software




U.S. Department of Labor - Office of Inspector General                                Page 20
BLS Economic Data Security Audit - Findings and Recommendations

       During our audit, we found some surveys performed final testing of application
       software modifications without using an independent review/quality assurance
       group. As a result, there was no assurance that modified computer programs
       operated as intended and unauthorized changes were not introduced.

       In the CPS, final software testing was performed by the same person or group of
       persons who designed and programmed the modifications. Without an
       independent review/quality assurance group, there can be no assurance the
       modified program or system is performing as specified by the user and running in
       accordance with functional specifications.

       In the PPI survey, program modifications on SunGard were not subject to final
       testing by an independent review/quality assurance group to ensure program
       modifications operated as intended and unauthorized changes were not introduced.
       PPI officials advised us PPI SunGard systems are being migrated to a client server
       environment. In the client server environment, independent testing/quality
       assurance is performed. Officials indicated all PPI SunGard systems would not be
       off the mainframe computer until 2003. We believe until the migration is complete,
       authorized system modifications, whether scheduled or unexpected, should be
       subject to independent review/quality assurance to ensure they are performing as
       specified by users.

       We also found that computer programs were developed and written by PPI survey
       staff (economists/statisticians) in either FoxPro or Visual Basic programming
       language and were not subjected to an independent review/quality assurance to
       ensure the programs operated as intended and no unauthorized changes were
       introduced. These programs are used to enter, manipulate, sort, summarize and
       print sensitive data. Some of the programs process data on a continuous basis
       and are needed by the economists/statisticians to perform their jobs. Without
       subjecting these programs to independent review/quality assurance, there is no
       verification only authorized programs and modifications are implemented.

        b.     Access to Programming Source Code Was Not Restricted on
               the Mainframe Computer


       We also found program source code library restrictions needed improvement to
       protect the source code from unauthorized access and accidental or deliberate
       destruction.

       In the PPI survey, as is typical for the other surveys, data are processed on the
       mainframe and client server computer platforms. However, PPI survey computer
       programmers have access to the programming source code on the SunGard
       computer. Access to the production programming source code should be


U.S. Department of Labor - Office of Inspector General                            Page 21
BLS Economic Data Security Audit - Findings and Recommendations

       restricted to the programming staff authorized to work on the program source code.
       Access to software libraries should be protected by the use of access control
       software or operating system features and physical access controls. Furthermore,
       the movement of programs among libraries should be controlled by an organization
       segment independent of both the user and the programming staff to ensure
       software programs are protected from unauthorized changes.

       c.     Some Surveys Were Not Using a Standard Library
              Management System to Protect Software

       Not all surveys were using a standard library management software package to
       protect their computer programs. These problems are discussed below by survey
       group.

       In the CPS, we noted an absence of automated software inventory and version
       tracking tools. Such tools help prevent problems such as losing track of the most
       recent version or programmers overwriting each other’s changes.

       In the CPI survey, we found the programming development staff used manual
       procedures for tracking software changes (version control) to track the most recent
       version.

       BLS responded to our Statement of Facts as follows:

              For the CPS, the transfer of responsibility to FSMS for the design,
              development, and maintenance of CPS production systems will
              further ensure that CPS systems programming is conducted under
              standard OTSP procedures for systems development, testing, and
              use of tracking tools.

              For the CPI, systems staff investigated several automated tools and
              concluded that the manual procedures in place were superior to
              those offered by the automated tools.




U.S. Department of Labor - Office of Inspector General                              Page 22
BLS Economic Data Security Audit - Findings and Recommendations


                                   Recommendations

 To improve management controls over survey applications software testing and
 protection, we recommend the Commissioner:

        1.     Require the independent review/quality assurance function be performed
               for all modifications before placing programs or systems into production.

        2.     Obtain and implement a standard library management system to protect
               software.

        3.     Restrict access to all programming source code.




BLS Response to the Draft Report

BLS’ response is summarized below and numbered to correspond with OIG’s
recommendations. The complete text of BLS’ response is contained in Exhibit I of this
report.

       1.     Implementation should be completed by July 1999. Independent
              review/quality assurance will be required for all modifications before placing
              any programs or system into production.

       2.     Implementation is under way and deployment should begin by January 2000.
              OTSP has chartered a team to identify an appropriate standard library
              management system or systems.

       3.     Implementation is under way and should be completed in July 1999.
              Substantial restrictions to programming source code have long been in
              place. New restrictions will authorize only system librarians to move source
              code to and from production libraries.


OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendations to be resolved. The recommendations can be closed when
BLS provides adequate documentation that the corrective action has been implemented.




U.S. Department of Labor - Office of Inspector General                              Page 23
BLS Economic Data Security Audit - Findings and Recommendations

                                              Security vulnerabilities in the local area
 4. Security Vulnerabilities Existed
                                              network (LAN) infrastructure could result in
    in the Local Area Network                 compromising sensitive data files. Our review
    Infrastructure                            of LAN operational controls disclosed the
                                              following deficiencies:

       a.     disaster recovery plan for continuous operation had not been tested for most
              BLS mission-critical systems and the IT security plan was incomplete;

       b.     servers in the BLS LAN subnet were not always secure;

       c.     controls over dial-in communication lines were inadequate;

       d.     terminated employees and contractors sometimes retained access to BLS
              computers;

       e.     inactive user accounts were not deleted;

       f.     encryption technology was not used to protect passwords as well as
              confidential and embargoed files;

       g.     policy for frequency of password changes was nonstandard; and

       h.     password protected screen savers were not used to protect unattended
              computer work stations.

These vulnerabilities existed because BLS had not conducted an OMB Circular A-130
systems security review of its LAN in the last 8 years. These vulnerabilities leave the BLS
LAN susceptible to disruptions and unauthorized access.

BLS relies on its LAN to perform essential functions and meet mission goals.
Consequently, strong, effective internal controls are needed to mitigate the risk of
unauthorized disclosure of sensitive data and disruption of critical operations. Additionally,
natural disasters and inadvertent errors can disrupt IT operations if assets are not
adequately protected.

       a. Disaster Recovery Plan for Continuous Operation Had Not Been
          Tested for Most BLS Mission-Critical Systems and the IT Security
          Plan Was Incomplete

       BLS needs to be better prepared to prevent and respond to risks to its LAN. We
       found that disaster recovery plans for continuous operation had not been tested for
       most BLS mission-critical systems and the IT security plan did not fully address


U.S. Department of Labor - Office of Inspector General                               Page 24
BLS Economic Data Security Audit - Findings and Recommendations

       specific impacts of security threats and vulnerabilities. As a result, BLS may not be
       able to continue operation when unexpected events occur.

       In the past year, BLS had tested only one (the International Price Index) of its 23
       mission-critical systems for continuous operation. The CPI system was tested
       several years ago. The BLS Security Manager told us testing these systems is
       costly. However, BLS plans to test at least one more system by the end of 1999
       and will schedule tests for all other systems as soon as practical.

       Further, BLS stated meetings are being held with all systems managers to create
       Continuity of Operations Plans (COOP)/Disaster Recovery Plans for individual
       systems where there are none, and update the existing plans. Additionally, BLS
       stated they will verify the completeness of functions covered under the draft COOPs.


       We also found the BLS IT security plan had not been revised recently as required.
       The plan needs to be immediately updated and periodically reviewed. Specifically,
       we found the plan did not fully address the impact of the following threats and
       related vulnerabilities:

              •      unauthorized access to the LAN and LAN resources;
              •      unauthorized disclosure or modification of data and programs;
              •      spoofing of LAN data (one user masquerading as another); and
              •      disruption of LAN functions.

       BLS agreed and stated that the overall security plan has been well received by DOL
       and work is under way on adding specific security plan information.



       b. Servers in the BLS LAN Subnet Were Not Always
       Secure
       Improvements are needed in BLS policies and procedures to ensure consistency in
       the level of security over servers in the BLS LAN subnet. Our review of servers and
       backup media in the five survey offices disclosed they were not always physically
       secure and the server technical security controls were not always properly set up.
       Without adequate security, sensitive files in the servers are vulnerable to
       unauthorized access or misuse.

       Current BLS IT policy appears to be inconsistent. According to BLS IT policy, the
       program survey office management is primarily responsible for the security of their
       servers. Program survey managers are responsible for identifying and
       implementing the controls necessary to safeguard BLS data processing
       environment. Yet, OTSP is delegated BLS-wide responsibility for setting policy
       concerning computer security implementation and management.

U.S. Department of Labor - Office of Inspector General                               Page 25
BLS Economic Data Security Audit - Findings and Recommendations

       In our opinion, the above inconsistency results in the following server security
       vulnerabilities:

              (1) Inadequate Physical Security Over Servers

              At the CES, CPS, and PPI survey offices, we found servers located in open
              work areas. These servers were installed without consideration they could
              be vulnerable to damage, vandalism or unauthorized access. We also
              identified physically secured servers in these offices.

              Physical security of the building in which BLS is located appears adequate.
              There are guards at all entrances and card keys are used by employees.
              The IT policy on physical security advises restriction of unauthorized access
              to servers can be accomplished by the use of card keys. Card keys can
              also be used to regulate individual access to a set of secured rooms within
              the building.

              We found physical security was not adequate for 5 of 13 servers
              administered by the CES survey office and the single server administered by
              the CPS Division of Labor Force Statistics. The CES survey office servers
              were located in rooms in which access was not limited to only those staff that
              worked there. At the CPS survey office, we found the server was located in
              the general work area. At the PPI survey office, we found that servers were
              unattended in an unlocked office. We found this condition in the survey office
              and in the Division of Producer Price Systems in OTSP.

              At the CPI and ECI survey offices, we found all servers were physically
              secure. The managers for these survey offices decided that locating all their
              servers in the ADP Center would provide uniform physical security. The
              ADP center used a card key pass system to limit access to only authorized
              staff. The ECI had a separate room within the ADP Center which was
              secured with a touch pad lock.




U.S. Department of Labor - Office of Inspector General                               Page 26
BLS Economic Data Security Audit - Findings and Recommendations



              (2) Improper Storage of Backup Media

              We found that all server administrators were performing data backups;
              however, the backup tapes were not always adequately stored. The IT
              security manual advises backup tapes should be kept away from the system
              under lock and key. If the data are mission-critical, the tapes should be sent
              to LAN Support for offsite storage.

              At the CES and CPS survey offices, server administrators stored backup
              tapes in locked cabinets near the system. This is in contrast to the ECI
              survey office that backed up all servers at the same time and sent the
              backup tapes to BLS offsite storage. Thus, ECI would be in a better position
              to restore its data and programs in the event of a disaster. Currently, both
              the CES and CPS use the offsite mainframe computer to store a majority of
              its survey programs and micro data; however, both offices are going through
              major revisions to put their operations on a server platform. When these
              revisions are completed, offsite storage of backup tapes will be critical.

              (3) Inadequate Technical Security Controls

              We found problems with technical security controls. At our request, the BLS
              Security Manager used two security software packages (the Internet Security
              Systems Net Scanner and Dump ACL) to scan seven servers used to store
              embargoed data. The common problems identified by the security software
              packages were:

                     •      locked accounts;
                     •      user accounts never used;
                     •      dormant and disabled accounts;
                     •      user accounts with expired passwords;
                     •      user accounts, including superusers, with passwords that will
                            never expire;
                     •      dummy accounts; and
                     •      audit policies not requiring logging (audit) of use of user right
                            and process tracking.

              The above vulnerabilities can result in unauthorized access to the servers.
              All survey offices advised us they have corrected or will correct the problems.

              The security software also identified a serious problem in one of the CES
              survey office’s NT servers. No access permission controls had been set up
              for a backup folder which contained a file used to execute system backups.
              This could allow unauthorized access to the file and provide the unauthorized


U.S. Department of Labor - Office of Inspector General                                Page 27
BLS Economic Data Security Audit - Findings and Recommendations

              user the capability to change the file. By changing the file, the unauthorized
              user could execute any command desired. The survey office corrected the
              problem immediately after they were informed of it.

              Although the BLS Security Manager did periodically test LAN subnet
              servers, we concluded the testing process needs to be strengthened. This
              can be achieved by requiring server administrators to test their technical
              controls on a regular basis and document vulnerabilities identified and the
              corrective action taken. The problem with no access permission controls
              occurred because the server administrator was not technically qualified. The
              server administrator was an economist, performing server administrator
              responsibilities under “other duties as assigned.” OTSP LAN Support had
              to set up the server when it was installed. BLS’ practice of relying on server
              administrators who do not have an IT background can cause problems.

              In the ECI survey office, a server administrator receives requests for
              directory creation and permissions, and forwards them to another server
              administrator in OTSP for implementation. The OTSP server administrator
              is an IT specialist.

       Overall, we concluded BLS needs to strengthen its existing IT policies to require
       more OTSP involvement in server security. BLS should require servers be located
       in secure rooms with limited access. Additionally, BLS should require survey
       offices to establish a position for a qualified individual to be responsible for security
       oversight of all its servers.


       c. Controls Over Dial-in Communication Lines Were
       Inadequate

       BLS headquarters had over 2,600 dial-in communication lines. We concluded dial-
       in communication line management should include the IT security team. Until
       recently, additional lines were installed based on a request from the cost center
       manager with no review of the request by the IT security team. Without adequate
       control over these lines, the LAN is vulnerable to unauthorized access.

       The BLS security team identified dial-in communication lines as a potential
       vulnerability. Effective March 9, 1999, BLS instituted significant changes in its lines
       management policies. The new policy requires the IT security team to review and
       certify any new line requests. The policy also requires each manager to justify all
       existing lines to the satisfaction of the IT security team.

       BLS responded to our Statement of Facts as follows:



U.S. Department of Labor - Office of Inspector General                                 Page 28
BLS Economic Data Security Audit - Findings and Recommendations

              The BLS does not install a line unless requested by a Cost Center
              Manager. The BLS generally reviews its lines each year. . . .
              Following the OIG’s attention to this matter, OA and OTSP are
              taking extra steps to ensure that it is addressed fully. Requests for
              new data lines now will be granted only upon approval of the IT
              Security Officer.


       d. Terminated Employees and Contractors Sometimes Retained
          Access to BLS Computers

       We obtained printouts of employees and contractors who separated from BLS
       during the period November 1, 1998 through February 18, 1999. We also obtained
       listings of the users having currently open Windows NT and SunGard computer
       accounts. We compared the printouts of valid computer accounts with separated
       workers.

       This review disclosed that at least 14 separated employees and contractors still
       had valid Windows NT client server accounts and passwords and at least 11
       employees and contractors still had a valid SunGard account after their termination.

       The cause of the security problem is flawed communication between the personnel
       department and LAN support and SunGard support.

       OIG concluded this was a serious security problem. As one BLS LAN contractor
       stated, “these ex-employees/contractors could wipe us out if they wanted to.”

       BLS should review the existing computer accounts and verify each account should
       be kept active.

       OTSP management stated they handle hostile terminations different from normal
       terminations. For employees terminated under hostile conditions, their ID cards are
       confiscated immediately, their computer accounts disabled/deleted and they are
       escorted out of the building. Non-hostile terminations are processed using BLS’
       normal terminations procedures; i.e., BLS personnel department notifies the BLS
       office responsible for deleting/disabling the terminated employee’s computer
       accounts.




U.S. Department of Labor - Office of Inspector General                                Page 29
BLS Economic Data Security Audit - Findings and Recommendations



       BLS responded to our Statement of Facts as follows:

              A distinction should be made between separated and terminated
              (dismissed) employees. As noted in the OIG report, extra
              precautions are taken to ensure that accounts are deleted
              immediately for terminated employees. The BLS agrees that
              improvements are needed in its process to delete SunGard
              accounts upon separation of employees and contractors.
              Corrective action is underway. After an initial effort is completed to
              identify and eliminate accounts that should be deleted, the BLS
              then will reconcile all remaining accounts with personnel listings
              and/or verify system accounts with Division Chiefs.

              The BLS also will work to ensure that the employee notification
              process works efficiently and reliably. Also, BLS will review the list
              of persons who receive notification of separations and ensure that
              the appropriate administrators of BLS Windows NT and Unix
              systems are included. The BLS IT Security Team will conduct
              regular audits to ensure that accounts are deleted in a timely
              manner.

              An important point regarding this matter is not included in the OIG
              report. The existence of an account for a separated employee is
              not necessarily an indication that the employee still has access to
              the account. Before the account of a separated individual is
              deleted, passwords are required to be changed promptly in both the
              client server and mainframe environment. The existence of
              account initials is not sufficient for access without a password. This
              practice is necessary because account initials may be needed by
              the BLS to access files created by the separated individual.


       e. Inactive User Accounts Were Not Deleted

       We requested a report showing the number of days that had passed since the last
       logon for each BLS Windows NT user. Our analysis of account activity established
       that 20 percent (317 of 1,615) of the user accounts on the Postal Square Building
       (PSB) subnet had never been used. We also identified another 16 accounts which
       had not been used for more than one year. After reviewing the report, BLS deleted
       the inactive accounts.




U.S. Department of Labor - Office of Inspector General                                 Page 30
BLS Economic Data Security Audit - Findings and Recommendations

       We concluded that BLS is not reviewing user accounts for inactivity. BLS should
       review all user accounts on all computer systems to identify and delete inactive
       accounts.

       BLS agreed they were not reviewing user accounts. OTSP/LAN management
       started reviewing user accounts to identify and deactivate inactive accounts. This
       analysis will continue throughout BLS. In addition, the IT security team will
       periodically confirm these reviews.


       f.     Encryption Technology Was Not Used to Protect Passwords as
              well as Confidential and Embargoed Files

       Encryption technology was not used on all BLS computer systems to protect
       passwords and confidential and embargoed files. On the NT servers, some
       passwords and files are encrypted; however, the UNIX servers and SunGard do not
       have encrypted passwords or files. BLS IT management advised us encrypting
       passwords on all LAN servers containing sensitive information would be cost
       prohibitive.

       Hacking into BLS LAN or internal employee misuse or sabotage of sensitive data
       could cause a disruption of network functions or unauthorized disclosure of
       sensitive data. This could jeopardize the credibility of BLS published economic
       and statistical data with the public and affect national monetary systems such as
       banks and stock markets. In our opinion, data and files stored on the BLS LAN and
       at SunGard demand protection which mandates encryption be used even when
       other access controls are considered adequate. Further, encryption takes on
       additional importance because BLS information requires a high level of
       confidentiality.

       BLS responded that they are dedicating funding for the inclusion of switching
       mechanisms throughout the LAN rather than for encryption software. Although
       installing hardware switches between subnets with sensitive data stored on them
       will decrease vulnerability from Internet hacking outside the BLS firewall, we believe
       the LAN is still vulnerable to misuse of sensitive data and sabotage from within by
       employees and contractors.


        g. Policy for Frequency of Password Changes Was Non-
        Standard
       Current BLS policy requires passwords be changed every 6 months. According to
       Federal Information Processing Standards, passwords protecting sensitive data
       should be changed every 30 days.



U.S. Department of Labor - Office of Inspector General                              Page 31
BLS Economic Data Security Audit - Findings and Recommendations

       BLS servers contain sensitive data which must be protected. We believe BLS
       should require changing passwords every 30 days.

       BLS disagrees with OIG’s position on changing passwords, and responded to our
       Statement of Facts as follows:

              Requiring users to change their passwords every 30 days would
              likely result in users writing their passwords on paper because they
              would have trouble remembering their frequently-changed
              password. This would be a greater security risk than continuing to
              allow users to keep a password for up to 6 months.


        h.     Password Protected Screen Savers Were Not Used to
               Protect Unattended Computer Work Stations

       At the CPI and PPI survey offices, we found password protected screen savers
       were not used to secure unattended personal computers. When computer
       terminals were unattended, a screen saver would activate after a set number of
       minutes. The screen savers were not password protected. Therefore, any files or
       programs accessed would be displayed whenever any key on the terminal was
       touched, or the mouse was moved. This practice         potentially would allow
       unauthorized users to access BLS files.

       BLS agreed to require the use of screen saver passwords. BLS stated:

              OTSP has instituted its BLS-wide policy that use of screen saver
              passwords is mandatory. This already has been published
              informally, and will be implemented in the near future.

The problems identified above demonstrate the BLS LAN infrastructure may be vulnerable
to unauthorized access, inappropriate use of BLS sensitive data, and disruption of critical
operations.




U.S. Department of Labor - Office of Inspector General                               Page 32
BLS Economic Data Security Audit - Findings and Recommendations



                                   Recommendations

 To strengthen LAN security, we recommend the Commissioner:

        1.     Test the continuity of operations in all BLS mission critical systems.

        2.     Update and periodically review the BLS IT security plan.

        3.     Require each server administrator to periodically test and ensure
               technical security controls are adequate.

        4.     Develop and implement IT security procedures to require all servers and
               backup media be located in a secure location with limited access.

        5.     Require each survey office to establish a position for a qualified
               individual to be responsible for security oversight of all its servers.

        6.     Strengthen controls over data lines by implementing procedures to
               require all requests for data lines be justified and be reviewed by the IT
               security team.

        7.     Identify and review all existing data lines to ensure they are needed.

        8.     Ensure managers review computer accounts regularly and verify that
               each account should be kept active. Delete all inactive accounts, and
               accounts of separated employees and contractors.

        9.     Improve IT security by installing software to encrypt passwords on servers
               where the passwords are stored and before one-way transmission from
               point-of-entry to point-of-authentication.

        10.    Encrypt confidential and embargoed files wherever possible.

        11.    Require password changes every 30 days.

        12.    Require screen saver password protection for all workstations.




U.S. Department of Labor - Office of Inspector General                                   Page 33
BLS Economic Data Security Audit - Findings and Recommendations



BLS Response to the Draft Report

BLS’ response is summarized below and numbered to correspond with OIG’s
recommendations. The complete text of BLS’ response is contained in Exhibit I of this
report.

       1.     Continuity of Operations Plans (COOPs) for all mission-critical systems
              should be developed by January 2000, and testing of critical systems that
              produce a Principal Federal Economic indicator should be completed by
              January 2002. The costs and staff time involved in testing a COOP prohibit
              BLS from quickly testing all plans in a short time frame. Testing for
              LABSTAT should be completed by June 2002.

       2.     A risk analysis should be completed by the end of Calendar Year 1999, and
              the IT Security Manual will be updated as appropriate. Additionally, an
              updated A-123/130 review plan should be finalized in July 1999.

       3.     Implementation should be completed by October 1999. BLS will institute a
              quarterly certification process, which will require server administrators to
              submit a completed security checklist to the IT Security Team for review.

       4.     OTSP has chartered a team to review the physical location and logical
              administration of all servers within BLS. Upon completion of the review, BLS
              will make and implement decisions on the physical location and security of
              servers and backup media.

       5.     BLS will ensure that individuals assigned the responsibility for server
              administration and security receive adequate training. Implementation
              should be completed by July 2000.

       6.     All National Office requests for data lines now must be approved by the IT
              Security Team. An appropriate clearance for regional offices requests
              should be in place by September 1999.

       7.     An inventory of data lines in the National Office was completed in June 1999,
              and unused data lines were eliminated. The same procedure should be
              completed in regional offices by October 1999.

       8.     Deletion of Separated Users’ Accounts - Network and subnetwork
              administrators will be informed of BLS employee and contractor
              separations. Separated employees’ and contractors’ account passwords
              will be changed, and the accounts will be deleted within 20 business days.
              This procedure should be in place by October 1999.


U.S. Department of Labor - Office of Inspector General                             Page 34
BLS Economic Data Security Audit - Findings and Recommendations



              Deletion of Inactive Accounts - On the first business day of each month,
              accounts will be checked that have not been accessed within the last 30
              days, and inactive accounts will be deleted within 20 business days. This
              procedure should be in place for NT accounts by July 1999 and October
              1999 for UNIX accounts.

              Management Review of Accounts - Managers will be required to verify
              computer accounts annually in October. Accounts not identified as active by
              the last business day in October will be disabled and deleted within 20 days.
              This procedure should be in place in July 1999.

       9.     An evaluation is under way to determine if BLS can fully implement OIG’s
              recommendation to encrypt passwords. Implementation should be
              completed as fully as possible by July 2000.

       10.    Work is under way to determine the extent to which BLS can encrypt
              confidential and embargoed files, and expanded use of encrypted files
              should be implemented by July 2000.

       11.    BLS plans to require passwords be changed every 90 days instead of every
              180 days as is currently being done. The NSA report recommended
              passwords be changed every 90 days, and 90 days is within the range of
              GAO’s guidelines. BLS believes that requiring passwords be changed
              every 30 days would increase security vulnerability because users would
              more likely write their passwords down to remember them. The change in
              password policy should be implemented by October 1999.

       12.    BLS has established a policy requiring that password protected screen
              savers be enabled on all workstations and servers, and that a maximum
              inactivity time of 15 minutes be used. Automated methods for auditing and
              enforcement are being developed.

OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendations to be resolved except for numbers 9 and 10. We continue to
recommend that BLS encrypt all passwords and all confidential and




U.S. Department of Labor - Office of Inspector General                            Page 35
BLS Economic Data Security Audit - Findings and Recommendations

embargoed files. While we also continue to believe passwords should be changed every
30 days as called for by Federal Information Processing Standards, we are resolving
recommendation number 11 because 90 days is within GAO’s guidelines. The resolved
recommendations can be closed when BLS provides adequate documentation that the
corrective action has been implemented.




U.S. Department of Labor - Office of Inspector General                       Page 36
BLS Economic Data Security Audit - Findings and Recommendations



 Chapter II                    The security practices and the level of security varied among
                               the five survey offices we audited. BLS needs to ensure
 Inconsistent
                               comprehensive security practices for preparing and
 Security                      disseminating news releases involving embargoed data are
 Practices in                  developed for and then followed by program survey offices.
 Program Survey
 Offices                       We found the following conditions in one or more of the five
                               survey offices:

                                      1.     procedures for preparing and disseminating
                                             news releases were incomplete and out of
                                             date;

       2.     news releases were prepared in unsecured work areas;

       3.     procedures for protection, destruction and number of copies of sensitive
              reports were inconsistent;

       4.     practices protecting electronic files containing sensitive data were not
              consistent; and

       5.     policies and procedures for employees who work at home (flexiplace) were
              insufficient.

These conditions occurred because BLS, until recently, had not established centralized
news release security standards and practices. As a result, there was no assurance all
security vulnerabilities were addressed to protect against the unauthorized use and/or
disclosure of sensitive news release data.

We reviewed the security policies and procedures in effect for five survey offices. We also
reviewed Office of Publications and Special Studies’ (OPSS) procedures for
disseminating news releases via “the fax on demand system.”

Overall, we concluded that BLS employees and managers were aware of the importance
of news release security controls and the need to protect BLS confidential and embargoed
data from unauthorized access or prerelease. We found that before the November 1998
and January 1999 prereleases, two survey offices performed internal security reviews of
the news release process. This demonstrated these survey offices took data security
seriously. Security awareness has been heightened since the two prereleases.
Additionally, the survey offices were receptive to correcting the security vulnerabilities we
identified during our audit.




U.S. Department of Labor - Office of Inspector General                              Page 37
BLS Economic Data Security Audit - Findings and Recommendations

We concluded OPSS had effective policies and procedures for the security over the “fax
on demand” news release process.

Our audit of security in the five survey offices disclosed that although many controls were in
place, the level of security varied and vulnerabilities existed. The following details are
provided.


                                          None of the five survey offices reviewed had a
 1. Procedures for Preparing and          comprehensive policies and procedures
    Disseminating News Releases           manual for preparing and disseminating news
    Were Incomplete and Out of            releases. We found written procedures that
    Date                                  did exist were fragmented among the
                                          individuals involved in producing the news
                                          release. Without a comprehensive policies
and procedures manual, survey office managers do not have a frame of reference for
administering security, and employees do not know what is expected of them.

Formal policies and procedures provide greater assurance that specific instructions are
communicated to the news release staff. They can be used to remind employees of their
responsibilities and to provide standards for measuring employee performance
(compliance).

In response to the latest prerelease incident, the BLS Commissioner issued instructions to
all Associate Commissioners to have their survey offices document all processes and
procedures for preparing and disseminating news releases. The instructions called for
identifying fundamental security principles the survey offices should ensure are
incorporated into processes and procedures. This initiative, when completed, should
provide the survey offices an adequate basis for developing a comprehensive policies and
procedures manual for each news release involving embargoed data.

BLS responded to our Statement of Facts as follows:

       Prior to the November and January prerelease incidents, the BLS
       procedures documentation was in various states of completeness and
       were not always current. Following the incidents, the Commissioner
       established a Security Steering Committee and a Security Review Team
       to conduct a comprehensive review. The Security Review Team
       developed a number of fundamental security principles that should be
       followed in the preparation and distribution of embargoed data. The
       Commissioner directed every BLS program to submit complete, up-to-
       date process documentation incorporating those principles where
       applicable. Nearly all BLS programs have submitted this documentation
       and all programs will complete this task in a timely manner. The

U.S. Department of Labor - Office of Inspector General                               Page 38
BLS Economic Data Security Audit - Findings and Recommendations

       respective documentation will be distributed to BLS staff involved in
       prerelease processing. Additional work is required to make the
       documentation fully complete, and to keep it current. The BLS will add a
       periodic review and evaluation capacity to ensure adequate
       documentation of procedures on an ongoing basis.



                                  Recommendations

 We recommend the Commissioner:

        1      Develop BLS-wide security standards to be followed by survey offices.

        2.     Ensure comprehensive policies and procedures manuals are developed
               for preparation and dissemination of sensitive news releases.



BLS Response to the Draft Report

BLS’ response is summarized below and numbered to correspond with OIG’s
recommendations. The complete text of BLS’ response is contained in Exhibit I of this
report.

       1.     BLS will issue a Commissioner’s Order on management control and data
              security and an Administrative Procedure on data security standards by
              October 1999.

       2.     A Data Security Steering Committee and Data Security Review Team were
              formed in February 1999 and is reviewing the security of sensitive news
              releases. Offices involved in preparing and disseminating embargoed data
              documented their processes for review by the Security Review Team. Any
              necessary improvements will be made, and new security standards are
              being developed.

OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendations to be resolved. The recommendations can be closed when
BLS provides adequate documentation that the corrective action has been implemented.




U.S. Department of Labor - Office of Inspector General                            Page 39
BLS Economic Data Security Audit - Findings and Recommendations

                                           We found varied levels of physical security over
 2. News Releases Were                     the individual office areas where the news
    Prepared in Unsecured Work             releases were prepared. The PPI and CPI
    Areas                                  offices did not secure office areas to limit
                                           access to only those employees who worked
                                           there. These office areas were vulnerable to
access by unauthorized individuals.

The CPS, CES and ECI survey offices had adequate physical security and recognized
operating in an open environment posed risks to security over news release data. These
survey offices locked the doors to work areas when the news release was being prepared.
Only employees who worked in the survey office could access the office area.

The CES, and recently the ECI, survey offices consolidated their respective news release
staffs into one location and secured it using the card key security system. This kept staff
not involved in the news release process from having access to embargoed data and
documents.

The PPI survey office now locks all doors to its office area and have advised us they plan
to consolidate their news release staff in one location. The CPI survey office management
has told us they plan to start securing their area in May 1999.

BLS responded to our Statement of Facts as follows:

       Effective immediately, the BLS program offices that process Employment
       Situation, ECI, PPI, and CPI embargoed data will lock entrance doors
       during the preparation of those data. Furthermore, the BLS will consider
       the feasibility of reconfiguring office space to physically separate program
       office staff who process those data.



                                    Recommendation

 We recommend the Commissioner ensure work areas for preparation of news
 releases are segregated and secure.




BLS Response to the Draft Report

BLS responded that all BLS Principal Federal Economic Indicators now will be released
through the Department of Labor “lock-up” procedure. Advance copies of these releases


U.S. Department of Labor - Office of Inspector General                             Page 40
BLS Economic Data Security Audit - Findings and Recommendations

will be printed in the Postal Square Building rather than at the Department of Labor Print
shop. Physical access to areas where these data are present will be restricted to
authorized individuals, and “restricted access” signs will be placed at entrances to those
areas. These actions should be completed by November 1999.

Over the long-term, the BLS will consider the advisability and feasibility of reconfiguring
office space to segregate staff working on these releases. BLS may conclude, however,
that alternative measures can be used to achieve the appropriate level of security.

OIG Conclusion

We continue to recommend that news releases be prepared in work areas that are
segregated and secure. This recommendation is not resolved.


                                                     Not all survey offices in our review
 3. Procedures for Protection,
                                                     adequately protected and/or destroyed
    Destruction and Number of Copies of              documents containing embargoed and
    Sensitive Reports Were Inconsistent              confidential data. These offices did not
                                                     have an effective system in place to
                                                     ensure confidential and sensitive
materials were always securely stored and properly destroyed when no longer needed.
Some survey offices produced excessive copies of reports containing embargoed and
confidential data. This led to the following conditions:


        a. Sensitive Reports Were Not Disposed of
        Properly
       Although BLS employees generally handled confidential respondent data
       appropriately, there were vulnerabilities in the disposal of documents containing
       such information for two survey offices.

       At the PPI survey office, we found printouts containing confidential respondent data
       were not always disposed of properly. We were told these printouts were
       sometimes placed in a recycling stack along with newspapers and nonconfidential
       printouts. We also observed a large stack of confidential printouts and newspapers
       awaiting recycling next to a doorway. Our cursory review of these printouts showed
       they contained confidential information such as establishment names and
       addresses, value of shipments, sample employment, items sampled, item prices,
       etc. The survey office did not have a system to ensure that such printouts were sent
       to the shredding facilities located in the computer print shop. PPI survey office
       management informed us they recently purchased two lockable containers for
       storing documents to be shredded.



U.S. Department of Labor - Office of Inspector General                              Page 41
BLS Economic Data Security Audit - Findings and Recommendations

       At the ECI survey office, we found during the process of reviewing reports
       containing preliminary estimates, several “working copies” were produced and
       used by the reviewers. We were told these “working copies” were disposed of by
       placing them in the recycling container. In our opinion, these “working copies”
       should have been shredded. Even though these reports did not show respondent
       names, they did show schedule numbers which could be used to identify
       respondents if the right coding was obtained.

       We were told by ECI survey office management these “working copies” should be
       treated as confidential. The ECI survey office plans to purchase an additional
       shredder and a secure bin for confidential material. Additionally, staff will be
       briefed in detail on the importance of the proper handling of sensitive materials and
       management follow-up procedures will be put in place.

       BLS responded to our Statement of Facts as follows:

              . . . BLS agrees with OIG that procedures for controlling, protecting,
              accounting for, and destroying computer printouts containing
              sensitive information/data need to be improved. The Office of
              Administration is re-educating all BLS offices of the process in
              place for the destruction of printouts containing sensitive
              information and data. A memorandum providing guidelines,
              responsibilities, and options available to programs for disposing of
              sensitive materials is now being drafted for distribution to all cost
              center managers. Program offices are being instructed to procure
              secure/lockable containers as needed for storing sensitive
              materials prior to destruction.


        b. Reports Containing Embargoed Data Were Not Properly
        Controlled
       There were security weaknesses in the control over computer printouts containing
       embargoed data printed in the ADP center for three survey offices.

       In the CES survey office, we found the chain of custody over printouts was
       jeopardized because they were delivered by mail room staff rather than being
       picked up by survey office staff. Although the survey office tracks the scheduled
       delivery of the printouts, we still consider this a security weakness because of the
       sensitivity of the data.

       In the PPI survey office, we found computer printouts containing embargoed data
       printed by the ADP center were not tracked. We were told by the survey office staff
       there have been occasions when the printouts were never received. The staff
       assumed that the printouts were misdelivered to other users who did not bother to

U.S. Department of Labor - Office of Inspector General                               Page 42
BLS Economic Data Security Audit - Findings and Recommendations

       forward them. We found there were no procedures covering the delivery and
       accounting for the printouts.

       In the CPI survey office, we found a control procedure needed to be changed and
       enforced. The procedure required ADP center staff maintain a control sheet for
       sensitive printouts when they are placed into a safe. However, this procedure did
       not identify each print job submitted. Having the requestor initiate the control sheet
       will allow the control sheet to be reconciled with the printouts. During our
       observation of the handling of the printouts by the ADP center, we noted the safe
       was not locked as required by written procedures.

       BLS responded to our Statement of Facts as follows:

              Effective immediately, designated program office employees will
              transport all printouts that contain embargoed data from the ground
              floor ADP center to the appropriate program office, or will
              accompany personnel assigned to transport the listings. All
              embargoed listings will be placed in a locked bin in the ADP center
              until the designated employees retrieve them.


        c. Excessive Copies of Sensitive Documents Were
        Produced
       Two survey offices generated excessive copies of computer printouts containing
       confidential and embargoed data. This created problems in the proper disposal of
       printouts.

       The PPI survey office constantly generated a high volume of printouts containing
       confidential data. Due to the sheer volume of the printouts, they could not be
       secured in locked cabinets. Additionally, the large volume of paper makes proper
       disposal by shredding more difficult. PPI survey office management responded that
       a new electronic collection process would help reduce the amount of paper
       generated. In addition, using a shared directory to store price notes would avoid
       the unnecessary printing of the information.

       At the CPI survey office, we found multiple copies of documents containing
       sensitive information were unnecessarily printed and distributed. The documents
       contained price notes describing changes in prices of products in industries.
       Rather than printing price notes, placing them in a shared directory accessible only
       to those employees with a need to know prior to the news release would reduce the
       chances sensitive data could be prematurely released. CPI survey office
       management informed us they will place the price notes in a limited access, shared
       directory.



U.S. Department of Labor - Office of Inspector General                               Page 43
BLS Economic Data Security Audit - Findings and Recommendations



                                    Recommendation

 We recommend the Commissioner strengthen and enforce policies and procedures for
 safeguarding printouts with confidential and embargoed data.




BLS Response to the Draft Report

A memorandum to all BLS employees is being prepared to remind them that confidential
printouts must be treated in a secure manner, excessive printing of confidential listings
should be avoided, and to inform them of facilities available for disposal of confidential
materials. Triennial application security reviews will assess the security of confidential
printouts. Physical security controls for the ground floor computer center will be improved
by January 2000. A sign has been posted stating that central LAN printers should not be
used for printing sensitive or embargoed data.

OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendation to be resolved. The recommendation can be closed when
BLS provides adequate documentation that the corrective action has been implemented.


                                             We found the survey offices used different
 4. Practices Protecting Electronic
                                             methods to store electronic files that contained
    Files Containing Sensitive Data          embargoed data. Uniform procedures need to
    Were Not Consistent                      be implemented.

                                              According to BLS policy, employees are not to
store sensitive data on their PC. The sensitive data should only be stored on a server.
This is required because of the low level of security provided by the Windows 95 Operating
System.

Three survey offices recognized that using shared directories on servers can limit the
access of sensitive files to only authorized individuals. The ECI survey office policy stated
shared directories eliminate the use of e-mail in the transferring of files among staff.

We found the CPI and CPS survey offices did not always use servers to store embargoed
data. Instead, these survey offices stored embargoed data on PCs or floppy disks. The
floppy disks were then stored in a locked desk. These survey offices did not use servers
because they were concerned about the level of security they provided. Based on our


U.S. Department of Labor - Office of Inspector General                               Page 44
BLS Economic Data Security Audit - Findings and Recommendations

review of servers used for preparing news releases, we share this concern. However, this
can be corrected if BLS strengthens its security management of servers.

Survey offices need to ensure sensitive electronic files are secured. It is our position this
can be achieved by storing files on secured servers in which access is limited to
authorized staff.

BLS responded to our Statement of Facts as follows:

       As currently worded, [this finding] indicates that it applies BLS-wide. The
       audit observations cite only rare instances where this has occurred.
       However, all personnel who handle embargoed data will be instructed as to
       the existing requirement not to store sensitive data on C-drives. In the
       instances cited by the OIG, the BLS already has taken corrective action.



                                     Recommendation

 We recommend the Commissioner strengthen and enforce policies and procedures for
 protecting electronic files containing sensitive data.




BLS Response to the Draft Report

BLS responded that storing sensitive data on computer C-drives has been discontinued
except where the computer is in a locked room used only by employees preparing
sensitive news releases. Storing sensitive data on diskettes is being reevaluated and
discontinued where appropriate.

OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendation to be resolved. The recommendation can be closed when
BLS provides adequate documentation that the corrective action has been implemented.


                                             Some employees participate in the flexiplace
 5. Policies and Procedures for
                                             program and can work at home. Employees
    Employees Who Work at Home
                                             can access the BLS computer systems from
    (Flexiplace) Were Insufficient           home and perform the same tasks they can
                                             perform from their office workstations.



U.S. Department of Labor - Office of Inspector General                                Page 45
BLS Economic Data Security Audit - Findings and Recommendations

Employees must have MacAfee virus protection software on their home computers before
they are allowed access to the BLS computer system.

Formal detailed written security procedures have not been developed for employees using
flexiplace. Policies and procedures should be prepared to address whether employees
can take confidential or sensitive data home or access it through their home computers.
The procedures should also cover issues such as receiving or sending e-mail, whether
home computer software must meet BLS standards, and storing information on the home
computer.

The U.S. Department of Labor, American Federation of Government Employees - Local
12, Flexiplace Agreement, Article 10, provides that employees on flexiplace are obligated
to apply necessary safeguards to protect government records from damage or
unauthorized disclosure. The Individual Flexiplace Work Agreement also provides that
employees will apply approved safeguards to protect government records from
unauthorized disclosure, and will comply with Privacy Act requirements and agency
confidentiality requirements. BLS confidentiality requirements include Commissioner’s
Order 3-93 and BLS Administrative Procedure No. 1-96. Neither of these BLS directives
specifically addresses flexiplace issues.

BLS responded to our Statement of Facts as follows:

       The BLS agrees that its flexiplace policies and procedures, with regard to
       data security, need to be improved. The BLS will strengthen and
       document those policies and procedures, including a prohibition against
       storing or printing sensitive data at home. The BLS does provide virus
       protection for computers used by flexiplace employees. The BLS will work
       with all flexiplace employees to have the latest virus protection software
       installed on their computers. Flexiplace employees are not permitted to
       take prerelease data home or access prerelease data from home.
       Contractors are not permitted to have flexiplace arrangements.



                                   Recommendation

 We recommend the Commissioner establish flexiplace policies and procedures which
 address data security requirements.




BLS Response to the Draft Report




U.S. Department of Labor - Office of Inspector General                           Page 46
BLS Economic Data Security Audit - Findings and Recommendations

BLS responded that proposed flexiplace policies and procedures addressing data
security requirements have been drafted and are currently being evaluated by senior
management. Final policies and procedures should be issued by September 1999.

OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report OIG considers
the above recommendation to be resolved. The recommendation can be closed when
BLS provides adequate documentation that the corrective action has been implemented.




U.S. Department of Labor - Office of Inspector General                           Page 47
BLS Economic Data Security Audit - Findings and Recommendations



                              We audited administrative controls over personnel security
 Chapter III                  and management control actions. We also looked at BLS
 Deficient                    follow-up on corrective actions taken on findings identified in
 Personnel                    prior reviews.
 Security and
 Management
 Control
                              We identified the following deficiencies:

       1.     inadequate personnel security for employees and contractors;

       2.     employees who handled embargoed data were not provided periodic
              training or guidance on ethics and investment restrictions; and

       3.     BLS management control plan was incomplete.

Given the sensitivity of the information maintained at BLS, management should act to
regularly reinforce the importance of data security to staff. Additionally, management
controls must be in place to ensure that security practices are consistently applied. The
following details pertain to the deficiencies identified.


                                           BLS did not have a consistent, comprehensive
 1. Inadequate Personnel
                                           personnel security program. This is evidenced
    Security for Employees and             by the fact that:
    Contractors


       a.     many employees having access to embargoed (sensitive) data did not have
              background investigations;

       b.     the sensitivity of many positions was improperly classified;

       c.     background investigations were not updated as required; and

       d.     contract employees lacked security checks and background investigations.

Many employees in BLS handle sensitive economic data which may affect or predict
financial market activity. An employee with advance knowledge of economic changes
could potentially profit by making speculative investments, attempting to capitalize on
anticipated market reactions.



U.S. Department of Labor - Office of Inspector General                              Page 48
BLS Economic Data Security Audit - Findings and Recommendations

The lack of a consistent, comprehensive security program may lead to a breakdown in the
professional discretion BLS staff must exhibit in the area of personal investments.
Additionally, any suspicion of actual or perceived breaches in BLS confidentiality of private
employers’ data may have an impact on their willingness to be involved in BLS programs,
which could be devastating to the agency.


       a.     Many Employees Having Access to Embargoed (Sensitive)
              Data Did Not Have Background Investigations

       All newly hired BLS employees are required to have a National Agency Check and
       Inquiry (NACI). This check is performed by the Office of Personnel Management
       (OPM) and costs about $74. The NACI includes a fingerprint, employment and
       education check. We found BLS to be in compliance with this requirement.

       The Federal Personnel Manual (FPM) contains requirements for various levels of
       background investigations for employees in critical or sensitive positions. Every
       employee having access to sensitive data is required to undergo either a
       Background Investigation (BI), Limited Background Investigation (LBI), or Minimum
       Background Investigation (MBI), depending on the position risk level (sensitivity
       level).

       We reviewed documentation on the security clearances for 58 employees who have
       access to embargoed data. We focused on employees who were responsible for
       preparing, reviewing or disseminating news releases for the CPI, ECI, PPI and
       Employment Situation Report.

       Of the 58 employees, there was no documentation 33 of the employees had
       received any type of background investigation. Some of these employees have
       had access to sensitive information for many years.

       According to BLS staff, some background investigations were inadvertently not
       done due to “oversights.” Some employees may not have completed and returned
       the required forms. There was no documentation of follow-up or management
       action to ensure requested background investigations were completed.

       The number of background investigations not completed and the length of time
       some have been overdue point to a lack of management controls in this area. It
       also indicates that supervisory staff does not monitor the background investigation
       status of their employees. Even with management controls, the personnel system
       could not have been used to determine the need for security clearances due to
       position sensitivities being improperly classified, as discussed in the next section.




U.S. Department of Labor - Office of Inspector General                              Page 49
BLS Economic Data Security Audit - Findings and Recommendations

       New software is being introduced which will be used for management of the DOL
       personnel system. The software (PeopleSoft) will be used to track security
       clearance information and position sensitivity. However, unless management (1)
       properly identifies the sensitivity of positions, (2) accurately indicates the security
       clearance status of personnel, and (3) actively monitors for required clearances
       being obtained, the new system will be of limited use.

       BLS responded to our Statement of Facts as follows:

              All security clearances have been initiated for those persons
              identified in the OIG audit as not ever having received the
              appropriate level of background investigation.


        b. The Sensitivity of Many Positions Was Improperly Classified

       The current DOL personnel system, which contains security review information,
       does not properly identify the sensitivity of most positions that have access to
       embargoed data. The position sensitivity classification was incorrect for most of
       the employees we reviewed. This improper classification makes the system
       useless in monitoring the status of the proper security clearances for staff.

       One employee was shown on a security listing to be in a non-sensitive position, yet
       holding a top-secret security clearance. The position should have been classified
       as critical-sensitive. The employee’s security clearance record in his personnel file
       did not indicate any type of security clearance. We checked with the DOL Security
       Officer and found the employee had received a BI and held a Confidential security
       clearance.

       Unless positions are appropriately classified, it is impossible for management to
       track who needs security clearances. The first step is to identify positions that
       require clearances; then determine if the individuals occupying the positions have
       the required clearance.

       BLS responded to our Statement of Facts as follows:

              The BLS will designate position sensitivity for all employee and
              contractor positions in accordance with the latest OPM guidance,
              and the appropriate security clearances will be performed on all
              employees and contractors who have access to embargoed data or
              work in critical areas.

        c. Background Investigations Were Not Updated as
        Required

U.S. Department of Labor - Office of Inspector General                                  Page 50
BLS Economic Data Security Audit - Findings and Recommendations

       Reinvestigations are required by the FPM every 5 years for employees in positions
       requiring a BI. We found for those staff who did receive a BI, most were not
       reinvestigated every 5 years.

       Of the 58 employees we reviewed, 25 of them had proof of a background
       investigation in their files. However, according to file documentation, 20 of these 25
       employees had background investigations more than 5 years ago.

       We focused our review on employees who routinely had access to and review
       embargoed data. However, our review of the agency-wide security listing showed
       other employees in critical positions with outdated background investigations. For
       example, according to the listing, one senior manager’s most recent background
       investigation was in 1972. A review of the employee’s file revealed a more recent
       background investigation dated May 23, 1983. However, under a 5-year cycle,
       updated background investigations were due in 1988, 1993, and 1998.

       This lack of background investigation updates points to a lack of management
       control and oversight.

       BLS responded to our Statement of Facts as follows:

              The OPM reinvestigation requirement is being deleted in the
              newest revision of the Code of Federal Regulations, part 731,
              pertaining to Suitability of Federal personnel positions. The
              regulations are due to be released in the spring of 1999.


        d.     Contract Employees Lacked Security Checks and
               Background Investigations

       Although contractors work alongside BLS employees and perform many critical
       functions, background investigations for them were rarely obtained. Also, even
       though all new BLS employees undergo an NACI security check, the process was
       seldom applied to contract employees. We found only 1 of 56 contractors
       performing central LAN support for the BLS in the National and Regional Offices
       had received a background investigation.

       BIs may be required according to contract requirements, but are only initiated at
       supervisors’ discretion.

       The BLS LAN Services contract contains the following background investigation
       requirement for certain key positions:




U.S. Department of Labor - Office of Inspector General                              Page 51
BLS Economic Data Security Audit - Findings and Recommendations

              Successful clearance of field background investigation by the Office
              of Personnel Management within one year of starting work on this
              contract. The Government will initiate such a background
              investigation as soon as practicable.

       The contract contains the following background investigation provision for all other
       positions:

              The Government may require successful clearance of a field
              background investigation by the Office of Personnel Management
              within one year of starting work on this contract. If so required, the
              Government will initiate such a background investigation as soon as
              practicable.

       In 1994, 1996, and August 1998, the LAN services supervisor sent memoranda to
       the BLS personnel office requesting background investigations for six contractors.
       Only one of the background investigations was completed. There was no
       documentation of follow-up or any action on the part of management to determine
       why the requested clearances were not obtained.

       We reviewed a November 1994 GSA Physical Security Survey Report on the
       Postal Square Building that houses BLS. According to the report:

              There is a requirement for security background checks to be
              conducted on the contracted and janitorial employees working in
              the Department of Labor space within this facility.

       BLS janitorial services are obtained through a GSA contract. GSA is responsible
       for arranging security clearances for janitorial contract staff. Part of the rationale for
       requiring security clearances may be because janitorial staff often work during non-
       business hours when other staff is not present. However, we believe it is
       inconsistent that janitorial contract staff would be required to undergo background
       checks, while computer contract staff is not required to have security clearances.




U.S. Department of Labor - Office of Inspector General                                  Page 52
BLS Economic Data Security Audit - Findings and Recommendations

       BLS responded to our Statement of Facts as follows:

              The BLS will establish and implement a policy requiring contractors
              to have the appropriate security clearance based on established
              guidelines consistent with Federal service employee positions.

BLS provided us an internal draft Personnel Security Review report dated April 6, 1999.
This report states many of the personnel security problems OIG identified and provides
recommendations for corrective action.


                                   Recommendations

 To improve controls over personnel security, we recommend the Commissioner:

        1.     Ensure the sensitivity level for all positions is accurately classified.

        2.     Ensure appropriate security clearances are obtained for all employees in
               critical or sensitive positions.

        3.     Ensure NACI checks are performed for all contract staff and appropriate
               security clearances are obtained for all contract staff performing critical
               or sensitive duties.

        4.     Ensure procedures are instituted to continually monitor the sensitivity of
               position classifications and employee and contractor security clearances.




BLS Response to the Draft Report

BLS responded that they will conduct a thorough review of all employee and contractor
positions and will update position risk designations in accordance with the latest OPM
guidance. Then, based on the position risk designations, BLS will initiate appropriate
security checks/clearances (NACI at a minimum) for all employee and contractor personnel
as necessary. Procedures will be put in place to ensure that appropriate security
checks/clearances are performed on all new employee and contractor personnel, and on
personnel who change positions within the BLS. All of these actions should be completed
for personnel who work with prerelease data for the Principal Federal Economic Indicators
by January 2000, and for all other personnel by April 2000.



OIG Conclusion


U.S. Department of Labor - Office of Inspector General                                    Page 53
BLS Economic Data Security Audit - Findings and Recommendations

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendations to be resolved. The recommendations can be closed when
BLS provides adequate documentation that the corrective action has been implemented.

In our draft report we discussed that certain background investigations were not always
updated every 5 years as required by the Federal Personnel Manual. BLS’ response to
our Statement of Facts stated that the OPM reinvestigation requirement was being deleted
in revised regulations due to be released in the spring of 1999. Consequently, our draft
report did not recommend that reinvestigations be performed. However, the revised
regulations have yet to be issued. If the reinvestigation requirement is not dropped by
OPM, BLS should take appropriate action to update background investigations as
required.


                                                 Most BLS employees do not receive
 2. Employees Who Handled
                                                 periodic training or reminders of
    Embargoed Data Were Not                      governmental ethics guidelines and
    Provided Periodic Training or                investment restrictions. Only Senior
    Guidance on Ethics and Investment            Executive Service employees receive
    Restrictions                                 annual ethics training and file annual
                                                 financial disclosures even though many
                                                 other staff handles sensitive and
confidential information.

Many BLS employees have access to sensitive economic data before it is released to the
general public. An employee with advance knowledge of economic changes could
potentially profit by making speculative investments attempting to capitalize on anticipated
market reactions.

Investment restrictions are contained in the government-wide publication Standards of
Ethical Conduct for Employees of the Executive Branch, dated August 1992. All new
employees are provided the Office of Government Ethics (OGE) handbook and attend an
ethics orientation presentation. Subpart G – Misuse of Position, Section 2635.703, Use of
Nonpublic Information, contains the following restriction regarding using sensitive
information to personal advantage:

       (a) Prohibition. An employee shall not engage in a financial transaction
       using nonpublic information, nor allow the improper use of nonpublic
       information to further his own private interest or that of another, whether
       through advice or recommendation, or by knowing unauthorized
       disclosure.

BLS requires all non-BLS employees, having access to confidential records, to sign a
Non-Disclosure Affidavit. The affidavit provides that the economic series data prepared


U.S. Department of Labor - Office of Inspector General                               Page 54
BLS Economic Data Security Audit - Findings and Recommendations

for release to the public shall not be disclosed or used in an unauthorized manner before
their official dates and time of release, and shall be accessible only to authorized persons.

All BLS employees must sign an acknowledgment letter certifying that they have read the
three following directives:

       (1)    Administrative Procedure 1-96, “Responsibility for Safeguarding
              Confidential Information,” spells out employees’ responsibilities, including
              never divulging prerelease estimates to any individual who is not an
              authorized person.

       (2)    Commissioner’s Order 3-93, “Confidential Nature of BLS Records,” which
              states that prerelease economic series data prepared for release to the
              public will not be disclosed or used in an unauthorized manner before being
              cleared for release.

       (3)    Commissioner’s Order 1-96, “Consumer Price Index Futures Contracts,”
              which prohibits BLS employees and contractors who have access to
              prerelease CPI data from buying or selling Consumer Price Index futures.
              This prohibition is not currently relevant because CPI futures are not traded,
              but is still in effect.

We noted CPI staff is periodically provided updated data security procedures. CPI
employees must sign a memorandum indicating that they fully understand the procedures
and agree to adhere to them. Although the procedures do not specifically address ethics
issues, they do provide that employees must not discuss embargoed data with anyone
prior to release. Such a medium acts as a means of periodically reminding employees of
their data security and ethics responsibilities.

A draft BLS position paper, dated March 26, 1997, made a recommendation BLS should,
at a minimum provide its employees guidance stating that engaging in certain types of
financial transactions with prerelease knowledge may violate standards for ethical conduct.
To date, this guidance has not been issued.

BLS responded to our Statement of Facts as follows:

       We are currently developing advisory employee guidance reiterating
       existing OGE restrictions and providing advice on avoiding a real or
       apparent conflicts-of-interest.




U.S. Department of Labor - Office of Inspector General                              Page 55
BLS Economic Data Security Audit - Findings and Recommendations


                                    Recommendations

 To ensure employees who handle embargoed data are aware of ethics requirements
 and investment restrictions, we recommend the Commissioner:

        1.      Provide periodic ethics training to all employees who handle embargoed
                data.

        2.      Finalize the advisory guidance regarding investment practices.

        3.      Establish a means of ensuring that all employees are periodically
                reminded of their responsibilities regarding ethical conduct and
                investment practices.




BLS Response to the Draft Report

BLS responded that they will establish an ongoing training/awareness program for all
employee and contractor personnel. It will include information on security, confidentiality,
and ethical conduct/investment practices. This program should be developed by January
2000. It initially will be provided to all current personnel, and then will be available to new
personnel on a continuing basis. The program will include periodic refresher training.

A BLS Commissioner’s Order on investment practices was drafted in May 1999 and is
being reviewed within BLS. The final directive should be issued by September 1999.

OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendations to be resolved. The recommendations can be closed when
BLS provides adequate documentation that the corrective action has been implemented.


                                      The BLS management control plan as currently
 3. BLS Management                    designed meets the basic requirements set forth in
    Control Plan Was                  OMB Circular A-123. In recent years, BLS has
    Incomplete                        revised its management control plan to streamline the
                                      process and integrate statutory review requirements.
                                      However, we noted the required OMB Circular A-130
triennial reviews had not been performed for all computer applications. Furthermore,
follow-up on corrective action for control deficiencies needed to be improved. As a result,


U.S. Department of Labor - Office of Inspector General                                 Page 56
BLS Economic Data Security Audit - Findings and Recommendations

the BLS management control plan may not fully achieve its objective to continuously
monitor and improve the effectiveness of the agency’s management controls.

Over the past few years, BLS revised its management control plan to identify six basic
areas critical to BLS mission and function. These are: (1) program management; (2)
financial management; (3) information technology; (4) personnel security; (5) physical
security; and (6) data confidentiality. Also, starting in April 1998, BLS implemented what is
referred to as the Quarterly Review and Analysis. This process is designed to involve
management in assessing critical BLS areas. Each BLS program reports quarterly on its
critical areas to a coordinating office which produces a summary report. Included in this
report is status information on issues identified in previous periods. This is followed by a
meeting with the Commissioner, the office chief, and other BLS officials.

Even though the BLS management control plan as currently designed meets the basic
OMB Circular A-123 requirements, the following conditions need to be addressed.


       a. Triennial OMB Circular A-130 Reviews Had Not Been
       Performed
       BLS has not met the OMB Circular A-130 requirement that security reviews should
       be conducted every 3 years. Since 1991, BLS has performed only one series of
       OMB Circular A-130 security reviews of its major systems and installations. A BLS
       official told us that, in the early 1990s, the decision was made to postpone the OMB
       Circular A-130 reviews because of budget constraints. As a result, the security of
       BLS information systems is at a greater risk of loss and unauthorized access.

       OMB Circular A-130, Appendix III, Security of Federal Automated Information
       Resources, requires each agency to perform an independent review of security in
       each major application and installation at least every 3 years. For some systems
       with changing technology or systems undergoing major modifications, reviews may
       be required earlier than 3 years.

       Furthermore, OMB Circular A-130, Section 8.a.9., requires that BLS, as a policy for
       safeguarding electronic information:

              . . . ensure that information is protected commensurate with the risk
              and magnitude of the harm that would result from the loss, misuse,
              or unauthorized access to or modification of such information.

       We found OMB Circular A-130 reviews were not performed triennially prior to FY
       1998. In fact, a DOL study in 1992 had noted BLS was overdue for application
       security reviews and recommended that they be expedited. The first series of OMB
       Circular A-130 reviews began in 1987 and three reviews were performed. The
       OMB Circular A-130 reviews were suspended and deferred due to their high cost


U.S. Department of Labor - Office of Inspector General                              Page 57
BLS Economic Data Security Audit - Findings and Recommendations

       and BLS budget limitations. During the suspension, BLS performed ad hoc internal
       security reviews. Starting in FY 1998, BLS management instituted OMB Circular
       A-123/A-130 Triennial Review Plan (TRP) which combined an installation review
       with a system review. The TRP covered one-third of the major programs each year.
       Three major programs were evaluated in FY 1998.

       We evaluated the TRP and found planned review dates for major BLS programs.
       However, the TRP also showed that some major installations have not been
       scheduled for risk analysis or audits. For example, the TRP shows the LABSTAT
       and other installations have an “undetermined” review date. Additionally, BLS
       designed the TRP to incorporate installation reviews into the system reviews. BLS
       management control officials told us the combined reviews produced unsatisfactory
       results. Specifically, the CES and PPI survey offices which were involved in the two
       recent prerelease incidents had a review conducted shortly before the incidents
       occurred. However, the vulnerabilities that caused the incidents were not identified.
       As a result, BLS has placed the triennial reviews on hold pending the outcomes of
       current OIG and internal reviews. We agree with BLS this combined review
       approach may not be effective and needs to be reevaluated.


       b.     BLS Management Control Needs to Strengthen its
              Oversight for Corrective Action

       To verify corrective action had taken place for audits and internal reviews, BLS
       management control staff depended on written responses from program
       management to determine if the recommendations were implemented. Although
       the responses adequately addressed the corrective actions taken, management
       control officials did not routinely verify corrective action had been implemented and
       was operating as designed. As a result, corrective action may not have been
       implemented or may not have been sufficient to correct the identified control
       weakness.

       According to OMB Circular A-123, Management Accountability and Control,
       responsibility for correcting deficiencies rests with agency management. The
       Circular states:

              . . . a determination that a deficiency has been corrected should be
              made only when sufficient corrective actions have been taken and
              the desired results achieved.

       The management control staff relied strictly on written reports as notice that
       corrective action had been implemented. As a result, audits and internal reviews
       continued to identify similar problems. For example, our review of the January 1999



U.S. Department of Labor - Office of Inspector General                               Page 58
BLS Economic Data Security Audit - Findings and Recommendations

       prerelease incident found problems similar to ones identified in an internal 1996
       review.

       Following a prerelease of PPI data in 1996, the management control staff
       performed an internal review and made six recommendations. Program
       management responded to each of the six recommendations with a corrective
       action plan. Two years later in November 1998 program management provided an
       update to the six recommendations. The update contained sufficient detail on the
       corrective actions taken and confirmed that changes had been made and were
       complete. However, we found that the corrective action taken failed to correct the
       identified problems and subsequent reviews identified similar problems. BLS
       management control staff agreed that verification of the improvements made since
       1996 may have prevented the recurrence of problems. The BLS management
       control staff told us they are currently considering what verification efforts should be
       included in following up on correcting high risk internal control deficiencies.

       Three additional examples in which problems found during our audit were similar to
       problems disclosed in previous reviews follow:

              (1)    A 1989 OIG audit of the BLS LAN reported that physical access to
                     servers can be improved and LAN password policies and
                     procedures need to comply with FIPS.

              (2)    A 1991 contractor security review of PPI reported work areas were
                     open during the workday, software changes were not done in a
                     controlled environment to ensure that the changes were authorized
                     and adequately tested before being moved to production,
                     appropriate segregation of duties did not exist in that applications
                     programming and systems programming had write access to PPI
                     production data, not all employees and contractors who had access
                     to embargoed data had background investigations, and sensitive
                     computer printouts from the remote printer room were delivered to a
                     table in an open unsecured area with no required verification that the
                     correct number of copies were received.

              (3)    A 1992 DOL Solicitor review of BLS-ETA data security noted that
                     OMB Circular A-130 reviews could be viewed as overdue because
                     BLS programs had not been reviewed since 1989. The Solicitor
                     recommended that BLS expedite its application security reviews.

       BLS responded to our Statement of Facts as follows:

              The BLS had performed formal A-130 reviews for approximately
              five years before suspending the formal program in 1991. Other


U.S. Department of Labor - Office of Inspector General                                Page 59
BLS Economic Data Security Audit - Findings and Recommendations

              internal security reviews were conducted on some programs as
              described in the audit observations. In 1998, BLS developed and
              reinstituted an A-123 and A-130 triennial review plan for our major
              programs. Three programs (PPI and the CPS and CES
              components of the Employment Situation) were reviewed by a
              contractor in FY 1998. The BLS plans to continue these reviews
              and will re-assess its plans following the completion of the current
              OIG and internal security audit/review activities.


                                   Recommendations

 To improve the BLS management control process, we recommend the Commissioner:

        1.     Revise and finalize the Triennial Review Plan to ensure all major systems
               are reviewed every 3 years.

        2.     Ensure adequate funding is provided to review all major systems at least
               every 3 years.

        3.     Discontinue the approach of incorporating the installation reviews into
               system reviews for high-risk areas.

        4.     Develop and implement follow-up procedures that require management
               control staff to verify the effectiveness of the corrective action taken by
               management on high-risk internal control deficiencies.




BLS Response to the Draft Report

BLS responded that a proposed triennial A-123/130 review plan has been prepared for
consideration by the Data Security Steering Committee. The plan covers the BLS
Principal Federal Economic Indicators, selected additional systems, and IT installations (a
total of 12 components). The plan should be finalized in July 1999 and BLS will ensure that
ongoing funding is allocated to accomplish the triennial review plan. Additionally, the
proposed triennial review plan provides for a separate review of each major BLS
installation: the mainframe computing center, the BLS LAN/WAN, and the BLS public web
site.



U.S. Department of Labor - Office of Inspector General                               Page 60
BLS Economic Data Security Audit - Findings and Recommendations

Concerning follow-up procedures, BLS responded that additional staffing and resources
will be allocated to the BLS Management Control Program, and recommendation follow-up
policies and procedures will be established to permit verification of corrective actions on
high-risk internal control deficiencies. These staff, resources, policies, and procedures
should be fully in place by July 2000. In the interim, current management control staff will
take steps to develop and implement an effective verification follow-up process.

OIG Conclusion

Based on BLS’ response to our Statement of Facts and draft audit report, OIG considers
the above recommendations to be resolved. The recommendations can be closed when
BLS provides adequate documentation that the corrective action has been implemented.




U.S. Department of Labor - Office of Inspector General                             Page 61
BLS Economic Data Security Audit


                                  BLS INITIATIVES
Since the two recent prereleases, the intrusion into the BLS web page, and OIG’s
audit, BLS has taken actions and implemented initiatives to prevent further incidents.

The first prerelease incident occurred on Thursday, November 5, 1998, for the October
1998 Employment Situation Report news release. The incident involved the posting of
supplemental news release tables to the BLS web site. As a result of the prerelease, the
Commissioner directed an internal review be conducted of the incident and the results
reported to her. The report was completed on November 19, 1998, and a copy was
provided to the Secretary of Labor and the Inspector General. The Commissioner also
directed BLS: (1) cease posting supplemental tables to the BLS web site until procedural
safeguards could be reviewed and strengthened; and (2) review every process connected
with posting data to the BLS web site. The Commissioner requested the Inspector
General to assist BLS in a comprehensive audit of all activities associated with the
dissemination of sensitive economic data.

On January 12, 1999, BLS experienced another prerelease. This prerelease involved PPI
data. On January 14, 1999, BLS and OIG initiated a joint review to identify the
processes/causes involved. The Commissioner provided a report to the Secretary of
Labor and Inspector General on the results of the review on January 25. The
Commissioner directed interim procedures be implemented to limit the amount of time
files are available on the internal servers prior to the official release time. The
Commissioner also held security sessions with all BLS managers. She instructed them to
reiterate data security policies to their staff.

On February 22, 1999, the Commissioner instructed the Associate Commissioners to
create an inventory of all data releases, the methods of dissemination and document the
procedures for each news release. They were to review, reassess, improve and document
their internal procedures. The Commissioner established a steering committee headed by
the Deputy Commissioner to facilitate this effort. A separate team has been established
to review the processes, with the first phase focusing on the security of embargoed data.
During our field work, we found some of the survey offices had already begun this process.

In April 1999, BLS formed the Configuration Management Team to produce a series of
guidelines which will include IT concepts such as version control, independent process
review and change control. On April 6, 1999, BLS Office of Administration published a
draft Personnel Security Review report. The review is part of an overall evaluation of BLS
activities associated with the dissemination of sensitive economic data. Additionally, in
April 1999 the BLS Data Security Review Team completed a physical security review of
the Postal Square Building.




U.S. Department of Labor - Office of Inspector General                             Page 62
BLS Economic Data Security Audit - BLS Complete Response to the Draft Report


                                                                     Exhibit I




  EXHIBIT I - BLS COMPLETE RESPONSE TO THE DRAFT REPORT




U.S. Department of Labor - Office of Inspector General                Page 63
                                                                                     Attachement



         Bureau of Labor Statistics (BLS) Response to Office of Inspector General (OIG)
                           Draft Audit Report No. 09-99-007-11-001


Note: Recommendations were not numbered in the OIG report. In this response, recommendations
are numbered based on their location in the report as follows: the first digit is the chapter number, the
second digit is the section number, and the third digit is the sequence number in which the
recommendation was listed within the section.


1.1.1.    Establish controls to ensure all available web security features are
          enabled.

The BLS has implemented this recommendation.

New web software (Microsoft Internet Information Server 4.0) has been installed and comprehensively
configured. As part of this installation process, security scripts were run to test for the presence of
recommended patches. Microsoft and other security-related news services are being monitored by the
LABSTAT system administration staff, in conjunction with LAN Support staff and the BLS security
team to keep appropriate personnel informed of threats and appropriate countermeasures.


1.1.2 Act on all findings in the NSA Security Report.

Implementation of this recommendation is underway and should be completed, to the extent possible,
by November 1999. To date (as of June 11, 1999), BLS has made changes to implement 37 of
NSA’s 82 recommendations.

As indicated in the NSA report, BLS may not be able to implement all of NSA’s recommendations
without making some of the BLS web site unavailable to the public. Public access is the primary
purpose of the web site. The NSA report stated that the recommendations were made “only to assist
you in choosing the correct posture in which to operate at 100% efficiency … it is possible that certain
operational commitments will not be met if all the recommendations are implemented.” This indeed is
the case. BLS is preparing an evaluation of the impact of implementing each of NSA’s
recommendations and will meet with the OIG to review the results of this evaluation.




                                                     1
1.1.3 Require LABSTAT to obtain and implement a standard library management system to
      protect software.

Implementation of this recommendation is underway and should be completed by August 1999.
LABSTAT has implemented Microsoft Visual Source Safe version control software. At present all
data loading scripts have been entered into the Source Safe library management system; all other
LABSTAT source code is currently being entered.


1.1.4.   Develop policies and procedures for LABSTAT which provide for controls over
         changes, upgrades, testing and implementation of both system and application
         software.

Implementation of this recommendation is underway and should be completed by January 2000. The
general policies have been set. Version control software is in place. More specific procedures will be
developed and implemented when a new staff member is hired to take the role of librarian and
configuration management coordinator.


1.1.5. Require the independent review/quality assurance function be performed for all
       modifications before placing programs or systems into production.

Implementation of this recommendation is underway and should be completed by November 1999.
LABSTAT established a new independent Quality Control team in February 1999. It is headed by one
long-time LABSTAT procedures member, and currently is staffed by two contractors. LABSTAT is
recruiting for three new federal employees to replace the two contractors, bringing the team to a total
strength of four people.

The team has developed comprehensive test plans for the two central LABSTAT production scripts –
News Releases and Time Series updates – and has performed two rounds of independent testing, one
in February for the introduction of new Sun hardware, and one in May for the roll-out of the Spring
1999 version of the LABSTAT system. The team next will develop quality control/test plans and
procedures for system level changes (in addition to the test plans already developed for the production
scripts).


1.1.6. Restrict access to all [LABSTAT] programming source code.

The BLS has implemented this recommendation. File permissions currently are set so that only the
LABSTAT Data Management branch chief has write access to the data loading scripts on the
production machines. Such access restrictions are likely to become more sophisticated once the
configuration management coordinator is on board.




                                                   2
1.1.7   Ensure LABSTAT develops formal documentation outlining duties, responsibilities and
        lines of communication.

Implementation of this recommendation is underway and should be completed by January 2000.

LABSTAT management is working on a comprehensive reorganization plan, which includes
considerable information on duties, responsibilities, and lines of communication. This reorganization
plan has been approved by BLS management. The reorganization plan documents will be
supplemented by operational documentation containing additional details on duties, responsibilities, and
lines of communication.


1.1.8. Ensure staff outside of LABSTAT is not allowed to post information to the web site.

The BLS has implemented this recommendation. File permissions on the LABSTAT production
machines, both inside and outside the firewall, are set so that only LABSTAT staff may write to these
machines.


1.2.1. Ensure procedures are developed to periodically review and test access controls at
       SunGard to ensure BLS data is secure.

Implementation of this recommendation is underway and should be completed by October 1999. The
BLS Information Technology (IT) Security Team has been assigned the responsibility for testing IT
security controls at SunGard. They will develop/acquire tools and establish procedures for regularly
testing file and tape access controls at SunGard.


1.3.1. Require the independent review/quality assurance function be performed for all
       modifications before placing programs or systems into production.

Implementation of this recommendation is underway and should be completed in July 1999.
Independent review/quality assurance will be required for all modifications before placing any programs
or system into production. The BLS Office of Technology and Survey Processing (OTSP) approved
procedures on May 10, pending certain minor changes, which require acceptance testing that is
independent of the developer(s) who made the modifications.


1.3.2. Obtain and implement a standard library management system to protect software.

Implementation of this recommendation is underway and deployment should begin by January 2000.
OTSP has chartered a team to identify an appropriate standard library management system or systems.
It is likely that there will be more than one such system – OTSP does not expect that a single system
will be appropriate for both the mainframe and the LAN/personal computer environments. The team
should make its recommendations by October 1999, and management will act on the recommendations
expeditiously. In cases where a mainframe system is in the process of being downsized to the LAN

                                                    3
environment, the library management system generally will be deployed in the downsized environment.
We will ensure that interim safeguards are in place as appropriate.

1.3.3. Restrict access to all programming source code.

Implementation of this recommendation is underway and should be completed in July 1999. Substantial
restrictions to programming source code have long been in place. Additional restrictions were included
in the new configuration management processes adopted by OTSP on May 10, pending certain minor
modifications. (See BLS response to recommendation 1.3.1.) These restrictions authorize only system
librarians to move source code to and from production libraries.


1.4.1. Test the continuity of operations in all BLS mission critical systems.

Implementation of this recommendation is underway. Continuity of Operations Plans (COOPs) for all
mission-critical systems should be developed by January 2000, and testing of critical systems that
produce a Principal Federal Economic Indicator should be completed by January 2002.

The costs and staff time involved in testing a COOP prohibit the BLS from quickly testing all plans in a
short time frame. The BLS plans to test one COOP before the end of Calendar Year 1999. Based on
the information gathered from that test, a schedule will be developed for testing the COOPs of all other
mission critical systems; at a minimum, testing for each Principal Federal Economic Indicator system
should be completed by January 2002, and testing for LABSTAT should be completed by June 2002.
In the interim, portions of each system’s COOPs will be tested in order to verify server and application
recovery procedures.


1.4.2. Update and periodically review the BLS IT security plan.

Implementation of this recommendation is underway and should be completed by January 2000.
The intent of the BLS IT Security Plan is to document mitigating security controls within the
environment; it is not intended to identify and assess the impact of vulnerabilities. The identification and
impact of vulnerabilities should be completed during a risk analysis process. The BLS has not
completed a recent risk analysis. A risk analysis should be completed by the end of Calendar Year
1999, and BLS will update the IT Security Manual as appropriate. Additionally, the BLS is updating
its triennial A-123/130 review plan. It will cover the BLS Principal Federal Economic Indicators,
selected additional systems, and IT installations. The updated A-123/130 review plan should be
finalized in July 1999.




                                                      4
1.4.3. Require each server administrator to periodically test and ensure technical security
       controls are adequate.

Implementation of this recommendation is underway and should be completed by October 1999.

The BLS will institute a quarterly certification process, which will require server administrators to
complete a security checklist and submit it to the IT Security Team for review. The IT Security Team
will continue and expand the content of its current monthly audits of all BLS servers.


1.4.4. Develop and implement IT security procedures to require all servers and backup
       media be located in a secure location with limited access.

OTSP has chartered a team to review the physical location and logical administration of all servers
within the BLS. This team will produce recommendations on the following:

      •   Physical security requirements for areas housing servers.
      •   Relocation of existing servers.
      •   Future location of new servers.
      •   Responsibility for server administration of existing servers.
      •   Assignment of server administration for new servers.
      •   Centralization of specific administrative tasks.

Following completion of the team’s work, the BLS will make and implement decisions on the physical
location(s) and security of servers and backup media.


1.4.5. Require each survey office to establish a position for a qualified individual to be
       responsible for security oversight of all its servers.

The OTSP team described in the BLS response to recommendation 1.4.4 will make
recommendation(s) to ensure that individuals assigned the responsibility for server administration and
security receive adequate training to fulfill that responsibility. Full implementation of this
recommendation should be completed by July 2000. In the interim, OTSP will strengthen its current
server oversight activities (for example, increased auditing) to protect the security of data stored on
BLS servers.


1.4.6. Strengthen controls over data lines by implementing procedures to require all requests
       for data lines be justified and be reviewed by the IT security team.

The BLS has implemented this recommendation for National Office data lines, and a procedure to
ensure appropriate clearance of requests in the regional offices should be in place by September 1999.
All National Office requests for data lines now must be approved by the IT Security Team before the
lines are provided.

                                                     5
1.4.7. Identify and review all existing data lines to ensure they are needed.

The BLS has implemented this recommendation for National Office data lines, and implementation in
the regional offices should be completed by October 1999. An inventory of data lines in the National
Office was completed in June 1999, and data lines identified as unused were eliminated. An inventory
of data lines in the regional offices is being initiated, and any unused regional data lines will be identified
and eliminated.


1.4.8. Ensure managers review computer accounts regularly and verify that each account
       should be kept active. Delete all inactive accounts, and accounts of separated
       employees and contractors.

The BLS has partially implemented this recommendation and should complete all aspects of
implementation by October 1999, as follows:

      •    Deletion of Separated Users’ Accounts – BLS Information Technology security policy
           3.1.19 addresses this requirement. The BLS will develop an effective separations process
           for both employees and contractors, and will issue separations checklists to all supervisors.
           Network and subnetwork administrators will be informed of BLS employee and contractor
           separations. On or before midnight of the day following the user's last day of work, network
           or subnetwork administrators will disable, delete, or change the password for accounts used
           by the separated employee or contractor. Unless otherwise instructed by the separated
           person's manager, the default action will be to change the account password. If the account
           is disabled or the password is changed, the administrator will delete the account within 20
           business days of the user's last day of work. This procedure should be fully in place for all
           personnel and all types of accounts by October 1999.

      •    Deletion of Inactive Accounts – On the first business day of each month, network and
           subnetwork administrators will check for accounts that have not been accessed within the last
           30 days. When such an account is encountered, an E-mail message will be sent to the
           account owner’s manager to determine if the account is still valid. If a response is received
           that the account is still valid, no action will be taken; otherwise the account will be disabled,
           and then deleted within 20 business days. The procedure for identifying inactive NT
           accounts should be in place in July 1999. The procedure for identifying inactive UNIX
           accounts is being developed and should be implemented by October 1999.

      •    Management Review of Accounts – Managers will be required to verify computer accounts
           annually. On the first business day in October, network and subnetwork administrators will
           produce a list of all user accounts defined on their systems. The administrators will parse this
           list by division or office; accounts that cannot be classified to a particular division or office
           will be included under a section labeled Other. The administrators will send a listing of the
           user accounts identified in an office or division to the appropriate manager along with a listing

                                                       6
          of the accounts identified as Other. It is the responsibility of the manager to have these
          accounts reviewed and to identify those accounts that should remain active. Any account not
          identified as active by the last business day in October will be disabled and subsequently
          deleted within 20 business days. The procedure for this annual management review of NT
          and UNIX accounts should be in place in July 1999.


1.4.9. Improve IT security by installing software to encrypt passwords on servers where the
       passwords are stored and before one-way transmission from point-of-entry to point-of-
       authentication.

An evaluation is underway to determine whether BLS can fully implement this recommendation, and
implementation should be completed as fully as possible by July 2000.


1.4.10. Encrypt confidential and embargoed files wherever possible.

Work is underway to determine the extent to which BLS can encrypt confidential and embargoed files,
and expanded use of encrypted files should be implemented by July 2000.


1.4.11. Require password changes every 30 days.

The BLS plans to change its password policy to require that passwords be changed every 90 days
instead of every 180 days. The NSA report recommended that BLS policy be established to require
changing passwords every 90 days; and 90 days is within the range of GAO’s guidelines. BLS
believes that requiring users to change passwords every 30 days would lead to an increased security
vulnerability because users would be more likely to write their passwords down in order to remember
them. The planned change in password policy should be implemented by October 1999.


1.4.12. Require screen saver password protection for all workstations.

The BLS has implemented this recommendation. The BLS has established an official policy requiring
that password protected screen savers be enabled on all workstations and servers and that a maximum
inactivity time of 15 minutes be used. This policy has been announced to all employees and contractors
and installation instructions have been made available. Automated methods for auditing and
enforcement are being developed.


2.1.1. Develop BLS-wide security standards to be followed by survey offices.

The BLS will issue a Commissioner’s Order on management control and data security and an
Administrative Procedure on data security standards. These directives should be issued by October
1999.


                                                  7
2.1.2. Ensure comprehensive policies and procedures manuals are developed for preparation
       and dissemination of sensitive news releases.

The BLS has implemented this recommendation. In February 1999, a BLS Data Security Steering
Committee and Data Security Review Team were formed. The team is conducting a thorough review
of the security of sensitive news releases. The Commissioner directed the statistical program offices to
document all processes for preparing and disseminating embargoed data, with the involvement of the
supporting OTSP project offices. Other offices involved in data dissemination also documented their
processes. These offices submitted their documentation to the Security Review Team, and the team
analyzed the documentation for adherence to key security principles. Offices will be directed to make
any necessary improvements to their documentation based on the team’s feedback and to incorporate
new BLS security standards that are being developed.


2.2.1. Ensure work areas for preparation of news releases are segregated and secure.

The BLS is in the process of implementing this recommendation. The BLS Security Review Team has
addressed the physical security of sensitive news releases, and the Steering Committee has approved a
number of team recommendations. All BLS Principal Federal Economic Indicators now will be
released through the Department of Labor “lock-up” procedure. Advance copies of these releases will
be printed in the Postal Square Building rather than at the Department of Labor Print Shop. Physical
access to areas where these data are present will be restricted to authorized individuals, and “restricted
access” signs will be placed at entrances to those areas. These actions should be completed by
November 1999.

Over the long term, the BLS will consider the advisability and feasibility of reconfiguring office space to
segregate staff who work on these releases. We may conclude, however, that alternative measures can
be used to achieve the appropriate level of security.


2.3.1. Strengthen and enforce policies and procedures for safeguarding printouts with
       confidential and embargoed data.

The BLS is taking a number of actions to implement this recommendation. The Office of
Administration is preparing a memorandum to all BLS personnel on this matter. It will remind them that
confidential printed material (material displaying respondent-identifying or pre-release data) must be
treated in a secure manner in accordance with BLS Administrative Procedure 1-96. It will instruct
them to avoid excessive printing of listings containing confidential material, and will inform them of the
facilities available for the authorized disposal of printed confidential material. This memorandum will be
issued in July 1999.

Triennial application security reviews of BLS programs will include an assessment of whether
confidential printed material is being treated in a secure manner.




                                                     8
Enhanced physical controls over entry points to the ground floor computer center will be installed by
January 2000. Confidential material is not printed on the central LAN printers in room 2810 of the
Postal Square Building. As a precautionary measure, however, a sign stating that the central LAN
printers should not be used for printing sensitive or embargoed data has been posted in the print job
pick-up area in room 2810.


2.4.1. Strengthen and enforce policies and procedures for protecting electronic files
       containing sensitive data.

The BLS has implemented or is implementing several OIG recommendations that will strengthen and
enforce policies and procedures for protecting electronic files containing sensitive data. Examples most
directly related to this recommendation are the BLS actions in response to recommendations 1.1.2
(acting on NSA findings); 1.2.1 (SunGard access controls); 1.4.3, 1.4.4, and 1.4.5 (server and backup
media security); 1.4.8 (computer account management; and 1.4.11 and 1.4.12 (passwords and
password-protected screen savers).

The BLS has discontinued the storage of sensitive data on computer C-drives, with the exception of a
secure procedure where the computer is stored in a locked room used by authorized persons
exclusively for preparing sensitive news releases. The storage of sensitive data on diskettes is being
re-evaluated on a case-by-case basis and discontinued where appropriate. Any diskettes containing
sensitive material will be handled in a secure manner and stored in locked receptacles.


2.5.1. Establish flexiplace policies and procedures which address data security requirements.

The BLS has drafted proposed flexiplace policies and procedures addressing data security
requirements, and they currently are being evaluated by senior management. Final policies and
procedures should be issued by September 1999.


3.1.1. Ensure the sensitivity level for all positions is accurately classified.

The BLS will conduct a thorough review of all employee and contractor positions and will update
position risk designations in accordance with the latest OPM guidance. Then, based on the position
risk designations, BLS will initiate appropriate security checks/clearances (NACI at a minimum) for all
employee and contractor personnel as necessary. Procedures will be put in place to ensure that
appropriate security checks/clearances are performed on all new employee and contractor personnel,
and on personnel who change positions within the BLS. All of these actions should be completed for
personnel who work with pre-release data for the Principal Federal Economic Indicators by January
2000, and for all other personnel by April 2000.


3.1.2. Ensure appropriate security clearances are obtained for all employees in critical or
       sensitive positions.


                                                   9
Please see the BLS response to recommendation 3.1.1.


3.1.3. Ensure NACI checks are performed for all contract staff and appropriate security
       clearances are obtained for all contract staff performing critical or sensitive duties.

Please see the BLS response to recommendation 3.1.1.


3.1.4. Ensure procedures are instituted to continually monitor the sensitivity of position
       classifications and employee and contractor security clearances.

Please see the BLS response to recommendation 3.1.1.


3.2.1. Provide periodic ethics training to all employees who handle embargoed data.

The BLS will establish an ongoing training/awareness program for all employee and contractor
personnel. It will include information on security, confidentiality, and ethical conduct/investment
practices. This program should be developed by January 2000. It initially will be provided to all
current personnel, and then will be available to new personnel on a continuing basis. The program will
include periodic refresher training.


3.2.2. Finalize the advisory guidance regarding investment practices.

A BLS Commissioner’s Order on investment practices was drafted in May 1999 and is being reviewed
within BLS. The final directive should be issued by September 1999.

3.2.3. Establish a means of ensuring that all employees are periodically reminded of their
       responsibilities regarding ethical conduct and investment practices.

Please see the BLS response to recommendation 3.2.1.


3.3.1. Revise and finalize the Triennial Review Plan to ensure all major systems are
       reviewed every 3 years.

A proposed triennial A-123/130 review plan has been prepared for consideration by the Data Security
Steering Committee. The plan covers the BLS Principal Federal Economic Indicators, selected
additional systems, and IT installations (a total of 12 components). The plan should be finalized in July
1999.




                                                   10
3.3.2. Ensure adequate funding is provided to review all major systems at least every 3
       years.

The BLS will ensure that ongoing funding is allocated to accomplish the triennial review plan.


3.3.3. Discontinue the approach of incorporating the installation reviews into system reviews
       for high-risk areas.

The proposed triennial review plan provides for a separate review of each major BLS installation: the
mainframe computing center, the BLS LAN/WAN, and the BLS public web site.


3.3.4. Develop and implement follow-up procedures that require management control staff to
       verify the effectiveness of the corrective action taken by management on high-risk
       internal control deficiencies.

Additional staffing and resources will be allocated to the BLS Management Control Program, and
recommendation follow-up policies and procedures will be established to permit verification of
corrective actions on high-risk internal control deficiencies. These staff, resources, policies, and
procedures should be fully in place by July 2000. In the interim, current management control staff will
take steps to develop and implement an effective verification follow-up process.




                                                   11
